<html>
<title> - FALUN GONG IN CHINA: REVIEW AND UPDATE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 FALUN GONG IN CHINA: REVIEW AND UPDATE

=======================================================================


                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 18, 2012

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov





                  U.S. GOVERNMENT PRINTING OFFICE
78-599                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
FRANK WOLF, Virginia                 CARL LEVIN, Michigan
DONALD A. MANZULLO, Illinois         DIANNE FEINSTEIN, California
EDWARD R. ROYCE, California          JEFF MERKLEY, Oregon
TIM WALZ, Minnesota                  SUSAN COLLINS, Maine
MARCY KAPTUR, Ohio                   JAMES RISCH, Idaho
MICHAEL HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)

                             CO N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page
Opening statement of Hon. Christopher Smith, a U.S. 
  Representative from New Jersey; Chairman, Congressional-
  Executive Commission on China..................................     1
Brown, Hon. Sherrod, a U.S. Senator from Ohio; Cochairman, 
  Congressional-Executive Commission on China....................     3
Chung, Bruce, Technology Manager in Hsinchu, Taiwan; Falun Gong 
  Practitioner Arrested in China.................................     5
Hu, Zhiming, Twice-Imprisoned Falun Gong Practitioner and Former 
  People's Liberation Army [PLA] Air Force Officer...............     7
Cook, Sarah, Senior Research Analyst, Freedom on the Net in East 
  Asia, Freedom House............................................     8
Xu, M.D., Jianchao, Assistant Professor of Medicine, Mt. Sinai 
  School of Medicine; Medical Director, Doctors Against Forced 
  Organ Harvesting...............................................    11
Lee, M.D., Charles, Spokesperson, Global Center for Quitting the 
  Chinese Communist Party........................................    22
Tong, James, Associate Professor, University of California-Los 
  Angeles........................................................    25
Ford, Caylan, Independent Scholar and Human Rights Consultant, 
  Ottawa, Canada.................................................    27
Xia, Yiyang, Senior Director of Policy and Research, Human Rights 
  Foundation.....................................................    30

                                APPENDIX
                          Prepared Statements

Chung, Bruce.....................................................    42
Hu, Zhiming......................................................    44
Cook, Sarah......................................................    48
Xu, M.D., Jianchao...............................................    56
Lee, M.D., Charles...............................................    62
Tong, James......................................................    99
Ford, Caylan.....................................................   106
Xia, Yiyang......................................................   111


                          FALUN GONG IN CHINA:

                           REVIEW AND UPDATE

                              ----------                              


                       TUESDAY, DECEMBER 18, 2012

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10 o'clock 
a.m., in room 418, Russell Senate Office Building, 
Representative Christopher Smith, Chairman, presiding.
    Also present: Senator Sherrod Brown, Cochairman.

      OPENING STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. 
    REPRESENTATIVE FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chairman Smith. The Commission will come to order. Good 
morning to all of you.
    In the early 1990s, the Chinese Government and the 
Communist Party welcomed the contributions of the Falun Gong 
spiritual movement: Its exercises and meditation had health 
benefits; its core teachings of truthfulness, compassion, and 
forbearance promoted morality in a society increasingly aware 
of a spiritual vacuum.
    All that changed, however, in 1999, when several thousand 
Falun Gong practitioners peaceably assembled at Zhangnanhai 
Leadership Compound in Beijing. Chinese leaders were astonished 
that Falun Gong had grown so large and prominent outside of the 
Party's control; so large that Falun Gong practitioners might 
outnumber the Communist Party's 60 million members.
    In the year afterward, the Chinese Government and the 
Communist Party began the campaign of persecution against Falun 
Gong that now has lasted more than 13 years. The persecution 
has been amply documented by the Department of State, the U.S. 
Commission on International Religious Freedom, Amnesty 
International, Human Rights Watch, Freedom House, and many 
other human rights non-governmental organizations [NGOs].
    The campaign has been severe, brutal, ugly, and vicious. 
Many tens of thousands of Falun Gong practitioners have been 
detained and arrested. No one can count those sent to prison 
for long terms, and too many remain there. Many were sentenced 
to reeducation through labor, others just disappeared.
    Those released have told of long and brutal interrogations, 
beatings, sleep deprivation, and other forms of torture. Their 
captors demand statements and confessions. They demand that 
those in custody name other practitioners, better to roll up 
the movement.
    Rights movements have documented more than 3,000 deaths of 
practitioners from torture and mistreatment, and doubtless 
there have been many more who have died in custody, their 
stories yet untold.
    Parallel to the treatment of practitioners was a 
comprehensive propaganda campaign designed to demonize the 
movement. From their radios and televisions, Chinese learned 
Falun Gong was a ``heretical cult organization.'' The schools 
taught the same dictated talking points to the young and the 
impressionable.
    On September 12, Dana Rohrabacher of California and I co-
chaired a joint hearing of the House Foreign Affairs 
Subcommittee on Oversight and Investigations and my 
subcommittee, the Africa, Global Health, Global Human Rights 
and International Organizations Subcommittee. We heard horrific 
testimony on the issue of organ harvesting in China.
    The witnesses touched on many issues: Transplants in 
Chinese medicine, transplant tourism, organ donors' reliance on 
death row prisoners, and disturbing testimony that Falun Gong 
practitioners and other prisoners of conscience may have been 
involuntary victims. For those interested in reviewing the 
evidence in full, I would recommend the transcript of that 
hearing. One of our witnesses today, however, will review this 
issue.
    In addition to arrested practitioners' imprisonment, 
sentences to reeducation through labor, and deaths, the Chinese 
Government and Communist Party have pressured Falun Gong 
practitioners to renounce their belief and practice. This 
``transformation'' campaign has been documented by our 
Commission in its Annual Reports and by other human rights 
organizations.
    Amnesty International described the campaign as a ``process 
through which individuals were pressured, often through mental 
and physical torture, to renounce their belief.''
    An extralegal Party-run security apparatus created in June 
1999 to eliminate the Falun Gong movement, the 6-10 Offices, 
spearheaded the campaign. The Commission observed this past 
year official Web sites providing education and training 
materials for local officials who continue to support their 
effort to suppress the Falun Gong.
    The Chinese Government and Communist Party have also 
continued to harass and detain persons who attempted to assist 
Falun Gong practitioners, including human rights lawyers such 
as Wei Liangyue, Wang Yonghang, and Gao Zhisheng.
    In the campaign against the Falun Gong, we see in high-
relief so many features of governance in China. The Chinese 
people's hopes are the ordinary hopes of mankind: To be free to 
work, to speak, to pray, to move, to enjoy healthy lives, to be 
free of poisonous pollution, to organize for better workplaces 
and better pay, and to find justice.
    What do they get? It is repression, unchecked police 
powers, prisons and labor camps, arbitrary courts, pressure 
against defense attorneys, punishment of family members as well 
as individuals, control of the media, blindness to the human 
cost of the Party's policies, indifference to life, and 
demonization of those who dare to disagree or speak out.
    We see this in the repression of believers, be they Tibetan 
Buddhists, members of house churches, or Falun Gong 
practitioners. We see this in the rough and brutal resort to 
forced abortions and involuntary sterilization of Chinese women 
who dare to hope that they could enjoy the same rights as the 
world's other women to decide on their own how many children 
they will have.
    In this year's 2012 Annual Report, the Commission urged the 
Chinese Government to permit Falun Gong practitioners to freely 
practice inside of China, to freely allow Chinese lawyers to 
represent citizens who challenge the legality of laws, 
regulations, rulings, or actions by officials, police, 
prosecutors, and courts that relate to religion; to eliminate 
criminal and administrative penalties that target religions and 
spiritual movements and have been used to punish Chinese 
citizens for exercising their right to freedom of religion.
    In the Annual Report, the Commission also called for the 
elimination of certain articles of law. Article 300 of the PRC 
Criminal Law criminalizes using a ``cult'' to undermine 
implementation of state laws. Article 27 of the PRC Public 
Security Administrative Punishment Law stipulates detention or 
fines for organizing or incenting others to engage in cult 
activities and for using cults or the guise of religion to 
disturb social order or to harm others' health.
    Today we repeat those recommendations. The purpose of this 
hearing is to allow a panel of experts on China and Falun Gong 
to review the persecution of the Falun Gong by the Chinese 
Government and the Communist Party and to update members of 
this Commission and the general public on recent developments.
    Again, I look forward to our witnesses and thank them in 
advance for being here. I yield to my good friend and 
colleague, the Cochairman of our Commission, Sherrod Brown.

  STATEMENT OF HON. SHERROD BROWN, A U.S. SENATOR FROM OHIO; 
    COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Senator Brown. Thank you, Chairman Smith. It's been a 
pleasure working with Chris Smith during this Congress. I so 
appreciate his leadership on this issue. I want to thank the 
staff of the Commission, Lawrence Liu and Paul Protic 
especially, the two staff directors, and all of you who helped 
to put together the Annual Report that came out of these 
hearings and the work that you all do for human rights.
    This is our last hearing for the 112th Congress. This 
Commission and others have well-documented the abuses committed 
by the Chinese Government and Communist Party against 
practitioners of Falun Gong. I would add to that my thanks for 
the work on the Annual Report and this hearing and other 
hearings, the work of the person on my staff, Doug Babcock, and 
the good work he has done on this.
    In this Annual Report we describe the 13-year campaign that 
Chairman Smith just discussed against Falun Gong as extensive, 
systematic, and in some cases, violent. It is indeed one of the 
harshest campaigns against a group of believers in modern 
times. Countless practitioners of Falun Gong face arbitrary 
detention, torture, and psychiatric abuse, and in some cases 
death, simply for practicing their beliefs.
    Unfortunately, the Communist Party apparently believes that 
the only way it is to survive is to stamp out diversity of 
opinion and belief wherever it occurs. For Falun Gong 
practitioners, this means renouncing your beliefs and being 
transformed--they use the word ``transformed''--through 
reeducation. Those who seek to defend Falun Gong practitioners 
are harassed and detained.
    All of us are aware of these abuses because of the many 
Falun Gong practitioners, a number of them in my State of Ohio, 
who possess the courage to speak out. That is why we are lucky 
today to have Bruce Chung with us. Bruce flew all the way from 
Taiwan on short notice to be here today. He traveled here with 
his brother because he believes, as I believe, that the truth 
must be told.
    This summer--and Bruce will discuss this obviously in more 
detail as our first witness--Bruce was visiting relatives in 
the People's Republic of China when authorities there detained 
him. They held him for 54 days. He was monitored around the 
clock while in custody. He was subjected to long hours of 
questioning without access to a lawyer. His interrogators 
sought to force him to sign a confession.
    For what? Authorities claim he threatened national security 
by trying to broadcast Falun Gong materials in China, but his 
real crime was trying to overcome China's censorship and 
exercise his right--a human right--to free expression. I thank 
Bruce and other witnesses for being here today. I know it is a 
difficult decision to decide to speak out and tell your story, 
especially when the facts can be painful and sensitive.
    But know, too, that you're doing something extremely 
important, for you are speaking out for the countless others 
who could not be here today and letting the world know what is 
happening inside of China.
    In the United States, we believe that our strength as a 
nation comes from the diversity of our people. China cannot 
keep responding to diversity as a threat to be suppressed. This 
is not an effective strategy. It's not working on the Tibetan 
plateau, where a policy of repression has led to a series of 
terrible tragedies. Nearly 100 Tibetans have committed self-
immolation in protest of policies against their religion and 
against their culture.
    It's not working on the Internet, where hundreds of 
millions of Chinese thirst for a place where they can share 
uncensored and diverse views about their society and their 
government. It's not working against the Uyghur people either. 
The strategy won't work in the case of Falun Gong, whose 
practitioners simply want to live in peace and freedom.
    In the United States, we fight for the right of our 
citizens to practice their belief. China seems too often to 
fight against those practices of its people. China must end all 
repression of Falun Gong practitioners, guarantee their freedom 
of belief, expression, and assembly, and release all political 
prisoners.
    Threats to freedom only strengthen people's resolve, people 
like Bruce Chung. It makes them fight harder for what is right. 
The sooner China realizes this, the better off their people, 
and this world, will be.
    So, thank you, Mr. Chairman.
    Chairman Smith. Thank you very much for your excellent 
statement.
    I would like to now welcome to the witness table our first 
panel, beginning with Bruce Chung, who is a technology company 
manager in Taiwan and Falun Gong practitioner. He was arrested 
in June of this year after he visited relatives in China. He 
was detained and interrogated for ``endangering state security 
and health'' for 54 days, even though he was not indicted on 
any charges. His cause was taken up by family, Amnesty 
International, and many civil organizations in Taiwan.
    We will then hear from Mr. Zhiming Hu, who was serving as 
an Air Force officer in Beijing and began practicing Falun 
Gong. After the Chinese Communist Party began the persecution 
of Falun Gong in 1999, Mr. Hu joined many peaceful appeals 
calling for religious freedom.
    Bypassing China's controls on the Internet, he downloaded 
information on the persecution from the Internet. For these 
activities he was imprisoned twice, for a number of years. He 
was accepted by the United States as a refugee in August of 
this year.
    We will then hear from Sarah Cook--we welcome her back--a 
Senior Research Analyst for Freedom on the Net in East Asia at 
Freedom House. She is a member of the China Media Bulletin and 
Weekly News Digest. Before she joined Freedom House, she co-
edited the English translation of ``A China More Just,'' a 
memoir by prominent rights attorney Gao Zhisheng.
    Then we will finally hear in this first panel from, again, 
Dr. Jianchao Xu, who is currently Assistant Professor of 
Medicine at Mt. Sinai School of Medicine in New York. He 
received his M.D. from Shenyang Medical School in China and his 
Ph.D. from Yale University, where he also completed his post-
doctorate research and was trained as a kidney specialist.
    We will also thank Helen Gao, who is our interpreter for 
today.

  STATEMENT OF BRUCE CHUNG, A TECHNOLOGY MANAGER IN HSINCHU, 
       TAIWAN; FALUN GONG PRACTITIONER ARRESTED IN CHINA

    Mr. Chung. I want to thank Chairman Smith and Cochairman 
Brown for holding this important hearing and inviting me to 
testify today. My name is Chung Ting-Pang, manager of Intek 
Technology Company, Ltd., in Taiwan.
    Like hundreds of thousands of Taiwanese citizens, I 
practice Falun Gong. I traveled to Ganzhou City in China's 
Jiangxi Province to visit some family members on June 15 this 
year. During the several days of visit I didn't do any Falun 
Gong activities or contact any Falun Gong practitioners in 
Mainland China.
    On June 18, I was on my way back to Taiwan as planned. When 
I was just about to board the flight from Ganzhou to Shenzhen, 
I was forcefully taken away by state security agents. I was 
then detained for 54 days under the vague accusation of 
sabotaging national security and the public safety until my 
release on August 11.
    I protested with a hunger strike. It wasn't until the 
second day of my unlawful detention that I was allowed to see 
my family and make one supervised call to my home in Taiwan. It 
wasn't until the next month that I was able to see my attorney, 
Guo Lianhui, but they only let us meet once and not in private.
    Without the presence of my attorney, I was subjected to 
marathon interrogation sessions that drove me to deep fatigue. 
The main content of the interrogations was all about my 
activities in Taiwan, of which they seemed to know a great 
deal, suggesting that I had been monitored in Taiwan for some 
time.
    The points the interrogation concentrated on were as 
follows:
    (1) An incident in 2003 in which I mailed TV hijacking 
equipment to Falun Gong practitioners in Mainland China;
    (2) I had once asked a Mainland China Falun Gong 
practitioner to provide me with government documents regarding 
the persecution of Falun Gong;
    (3) I tried to broadcast truth films regarding persecution 
of Falun Gong via satellite signals in Taiwan;
    (4) they wanted to know all the methods that Taiwan Falun 
Gong practitioners use to expose the prosecution of Falun Gong 
in Mainland China; and
    (5) they tried to force me to provide all names, phone 
numbers, email addresses, and participating projects of Falun 
Gong practitioners in Taiwan.
    Throughout the interrogations, they threatened me that if I 
did not cooperate they would bring in the harsher team to 
handle me, that they would change my civil detention to a 
criminal detention, and that they would send me to judicial 
authorities to be sentenced to prison.
    What is most unacceptable to me was that the state security 
agents forced me to sign a ``Confession Statement'' and asked 
me to admit that I committed a crime to endanger national 
security, public safety, and sabotage public property.
    Three weeks before I went back to Taiwan, they began to 
threaten me to admit my ``guilt'' and ``remorse.'' I was forced 
to write and rewrite many times the statement and I was 
videotaped again and again. I was threatened not to be too 
outspoken after I got to Taiwan.
    Undeterred, I called for a press conference on the third 
day after I landed in Taiwan, openly stating that:
    (1) What I wrote in that so-called ``Confession Statement'' 
and all the interrogation records were not done with my free 
will. All the details I provided were made up by me to deal 
with their threats;
    (2) I will continue to spread the truth to the Chinese 
public until the day the persecution ends; and
    (3) as an individual living in free and democratic Taiwan, 
it is an appropriate and just action for me to help the Chinese 
public, who have been deceived and persecuted by the Chinese 
Communist Party.
    Not until I returned to Taiwan did I realize that the 
people of Taiwan had put in tremendous efforts to rescue me. 
About 200,000 people in Taiwan signed a letter campaign that 
urged President Ma Ying-jeou to gain my release. Over 30 NGOs 
came together to organize activities and on three occasions 
accompanied my family during their petitions at the Office of 
the President.
    Additionally, I wish to make two points clear. First, the 
Chinese Communists do not only prosecute Falun Gong 
practitioners in China. According to the Taiwan Falun Gong 
Association, I am the 17th Taiwanese Falun Gong practitioner 
subjected to persecution from the Chinese Communist Party. 
Second, the Chinese Communist Party has hired spies overseas to 
illegally collect Falun Gong practitioners' personal 
information and information on their activities.
    Finally, I would like to thank Members of the U.S. Congress 
and the European Parliament for their efforts to secure my 
release. Thank you.
    Chairman Smith. Mr. Chung, thank you so very much. Like 
Chairman Brown, we are very grateful that you made the trip 
here to be here to convey this very powerful testimony to us. 
So, thank you so very much.
    Mr. Chung. Thank you. Thank you.
    Chairman Smith. Professor Hu?
    [The prepared statement of Mr. Chung appears in the 
appendix.]

     STATEMENT OF ZHIMING HU, TWICE-IMPRISONED FALUN GONG 
 PRACTITIONER; FORMER PEOPLE'S LIBERATION ARMY [PLA] AIR FORCE 
                            OFFICER

    Mr. Hu. First, I wish to express a heart-felt thank you to 
Chairman Smith and Cochairman Brown for holding this important 
hearing.
    I came to the United States as a refugee in August of this 
year. I witnessed the popularity of Falun Gong before 1999. I 
saw the horrors of the persecution between 1999 and 2010. I 
also have seen how the peaceful and valiant grassroots efforts 
of so many in China are turning back tyranny.
    I'll start at the beginning.
    My brother told me about Falun Gong in 1997. I loved it 
right away. My nasal problem that bothered me all of my life 
was gone after practicing Falun Gong for two weeks. The 
teaching also made me full of joy and peace. Falun Gong gave me 
a renewed outlook on life and on human society.
    In 1997, I was an officer in the Air Force. I lived and 
worked on a base in Beijing. We had an exercise practice site 
at the Air Force Command University. I went almost every 
morning along with 40 or 50 other Air Force officers or 
professors. We helped each other to be more ethical in our 
behavior, more responsible in our work, and more noble in our 
actions. I cherish these memories immensely.
    But on July 20, 1999, former Communist leader Jiang Zemin 
started a violent campaign to eradicate Falun Gong. The 
situation around the entire country was extremely tense. At 
first, we were confused. But then I began to use a proxy server 
to read reports on Minghui.org, the main Falun Gong Web site. I 
read how many practitioners were being tortured and killed. I 
had to act.
    By early 2000, many of us had a proactive attitude. We 
wanted to help, so I decided to leave the Air Force compound so 
I had more time and freedom.
    Within a week, however, the Air Force found me. They 
detained me for more than two months. But they couldn't 
transform me. Instead they forced me to retire from military 
and took me back to my hometown in Liaoning Province, in May 
2000.
    I returned to Beijing to continue the work of peacefully 
exposing the persecution. We made a plan to travel the country, 
and train practitioners to get around the Internet blockade and 
share information on the Minghui Web site. We were successful 
in seven major cities. But in Shanghai, in October 2000, police 
raided my hotel room and arrested me. They put me in a 
detention center and prison for four years. I could easily have 
died from mistreatment there.
    I was released in October 2004. But in 2005, a plainclothes 
policeman saw me give a copy of the Nine Commentaries DVD to 
someone on the street in Beijing.
    They put me through a show trial and sent me to four more 
years of prison. For more than three of these years I was very 
close to dying. Hunger strikes, force-feedings, and injections 
of poisonous chemicals made me an immobile and skeletal whisper 
of a man. During this time they often conducted blood testing 
and comprehensive physical exams. But they never gave me 
treatment that helped me get better. When I later learned of 
organ harvesting, I can't help but wonder if I might have been 
a candidate. When I was released in 2009, doctors told my 
family that I would probably die. If I didn't, I would be 
disabled.
    At home, I resumed my Falun Gong practice and was able to 
walk in two months. Soon I could take long walks outside.
    My experience of recovery is similar to how Falun Gong is 
still being practiced in China. The prisons failed to transform 
me and the Communist Party has failed to wipe out Falun Gong.
    In 2000, I saw no signs of Falun Gong practitioner activity 
in my hometown. But when I left China in 2010, I saw many Falun 
Gong posters hung in public for a long time. More and more 
people see through the once-widespread lies and are refusing to 
be accomplices in this persecution.
    Because of hearings like this, awareness is spreading and 
pressure on the Communist regime is mounting. I believe this 
persecution will end soon. Please do all that you can to help 
the persecution end more quickly.
    Thank you for your time.
    Chairman Smith. Thank you very much for your testimony.
    Ms. Cook?
    [The prepared statement of Mr. Hu appears in the appendix.]

 STATEMENT OF SARAH COOK, SENIOR RESEARCH ANALYST, FREEDOM ON 
              THE NET AND EAST ASIA, FREEDOM HOUSE

    Ms. Cook. Good morning, Chairman Smith and Cochairman 
Brown, ladies and gentlemen. Thank you very much for convening 
this hearing.
    I've been asked to address the origins of the campaign that 
led to the arrest of these two men on my right. Today, as we 
have just heard, Chinese citizens who practice Falun Gong live 
under constant threat of abduction and torture. The name of the 
practice, and various homonyms, are among the most censored 
terms on the Chinese Internet.
    Any mention by Chinese diplomats is inevitably couched in 
demonizing labels. But this was not always the case. Throughout 
the early and mid-1990s, Falun Gong, its practitioners, and its 
founder, Mr. Li Hongzhi, were often the subject of awards, 
positive media coverage, and government support.
    In an occurrence almost unimaginable today, Mr. Li gave a 
series of lectures at the Chinese Embassy in Paris in 1995. 
Chinese from every strata of society--doctors, farmers, 
workers, soldiers, some Communist Party members--began taking 
up the practice.
    Students of Falun Gong would gather in groups to perform 
its meditative exercises, but many saw the discipline as a 
personal, rather than collective, endeavor to enhance their 
health, mental well-being, and spiritual wisdom.
    There were no signs of a political agenda, or even the kind 
of criticism of the Communist Party that appeared in Falun Gong 
literature after the persecution began. By 1999, according to 
government sources, Western media reports, and Falun Gong 
witnesses, tens of millions of people were practicing.
    So what went wrong? The answer lies in a combination of 
ideological fears, institutional factors, and an individual 
leader's fateful decision. As you all know, Falun Gong is a 
spiritual practice. Its key features are qigong exercises and 
teachings reminiscent of Buddhist and Daoist traditions that 
have been part of Chinese culture for thousands of years.
    But for decades the Chinese Communist Party [CCP] has 
displayed a low tolerance for groups or individuals who place 
any authority above their allegiance to the Party. For 
Tibetans, this is the Dalai Lama. For Falun Gong practitioners, 
it is spiritual teachings centered on the values of 
truthfulness, compassion, and tolerance.
    Falun Gong's emphasis on these particular three values as 
part of its theistic world view appears to have especially 
attracted the Party's ire. The concepts seem to conflict with 
Marxism and other ideas that have been a source of legitimacy 
for the Party's authoritarian rule, like materialism, political 
struggle, and xenophobic nationalism.
    In fact, Xinhua, the state-run news agency, hinted at this 
in one of its articles in 1999 after the ban: ``In fact, the 
so-called truth, kindness, and tolerance principle preached by 
Li Hongzhi has nothing in common with the Socialist ethical and 
cultural progress we are striving to achieve.''
    The Communist Party also feels threatened by independent 
civil society entities. In 1996, the state-run Qigong 
Association instructed the establishment of Party branches 
among Falun Gong followers and wished to profit from the 
practice, so Li Hongzhi parted ways with it. Falun Gong's 
spiritual independence was then coupled with a loosely-knit 
organizational network.
    From 1996 to 1999, many in the government and the Party 
held favorable views of Falun Gong and publicly cited its 
benefits for health, and even social stability. But as Falun 
Gong's popularity and independence from Party control grew, 
several top cadres began viewing it as a threat. This 
translated into repression that showed its first signs in 1996, 
not 1999.
    The publication of Falun Gong books by state printing 
presses was banned shortly after these were listed as best-
sellers. Sporadic articles smearing Falun Gong appeared in 
state-run news outlets. Security agents began monitoring 
practitioners and occasionally dispersing meditation sessions.
    It was in this context that in April 1999 the escalated 
harassment culminated in several dozen practitioners being 
beaten and arrested in Tianjin. Those calling for their release 
were told that the orders had come from Beijing.
    On April 25, over 10,000 adherents gathered quietly outside 
the National Petitions Office in Beijing, adjacent to the 
Zhongnanhai Government Compound. They asked for an end to 
abuses and recognition of their practice.
    Some observers have pointed to this incident as taking 
Party leaders by surprise, and triggering the suppression that 
followed. But such an interpretation is flawed when one 
considers that it was escalating harassment led by central 
officials, including then security czar Luo Gan, that sparked 
the appeal in the first place.
    Rather, the event was pivotal because of how individual 
leaders responded to it. Premier Zhu Rongji adopted an 
appeasing stance and met with several of the petitioners' 
representative. The practitioners in Tianjin were released and 
those in Beijing went home. But Party Secretary Jiang Zemin 
overruled Zhu. He called Falun Gong a serious challenge to the 
regime's authority, in fact one of the most serious challenges 
since the founding of the People's Republic.
    In a circular dated June 7, he issued his fateful order to 
``disintegrate'' Falun Gong. Indeed, several experts have 
attributed the campaign in part to Jiang's personal jealousy. 
He reportedly disliked the sincere enthusiasm Falun Gong 
inspired, while his own standing in the eyes of the Chinese 
public was weak.
    But whatever the specific event of the late 1990s, the 
repression of Falun Gong in China cannot be viewed in a vacuum. 
Rather, it is one episode within the Communist Party's long 
history of arbitrarily suppressing independent thought and 
launching political campaigns against perceived enemies.
    The Party's tactics have become more subtle and 
sophisticated over time, but the underlying dynamics remain the 
same. The decision of what is approved or forbidden is made 
arbitrarily by Party leaders and the institutions, like an 
independent judiciary, that might curb their excesses are kept 
within the Party's realm of influence. We see this with daily 
censorship directives, and it is the same when it comes to 
spiritual movements like Falun Gong.
    Once Jiang made his decision, there was little to stop what 
came next. In July 1999, a full-scale campaign reminiscent of 
the Cultural Revolution was launched. The full weight of the 
CCP's repressive apparatus was turned on Falun Gong.
    The Communist Party and Chinese officials typically assert 
that Falun Gong needed to be banned because it was ``an evil 
cult'' that was having a nefarious influence on society. But 
these claims have not held up to scrutiny when investigated in 
China, nor when one considers Falun Gong's spread in other 
parts of the world, including democratic Taiwan.
    In fact, it was only several months after Jiang had already 
initiated the campaign that the Party apparatus zeroed in on 
this very effective term for its propaganda purposes, a 
manipulated English translation of the Chinese term 
``xiejiao.'' Zhao Ming, a former Falun Gong prisoner of 
conscience, summed up the dynamics as follows: ``The Party's 
machinery of persecution was there, Jiang pushed the button.''
    Thank you very much. In my written testimony you will find 
comments on some of the long-term consequences this campaign 
has had, both for Falun Gong and for the rule of law in China. 
Thank you very much.
    Chairman Smith. Ms. Cook, thank you very much.
    Now, Dr. Xu?
    [The prepared statement of Ms. Cook appears in the 
appendix.]

    STATEMENT OF JIANCHAO XU, M.D., ASSISTANT PROFESSOR OF 
   MEDICINE, MT. SINAI SCHOOL OF MEDICINE; MEDICAL DIRECTOR, 
            DOCTORS AGAINST FORCED ORGAN HARVESTING

    Dr. Xu. Good morning. Honorable Chairman Christopher Smith 
and Cochairman Mr. Brown, Members of Congress, and 
distinguished panelists, my name is Jianchao Xu. As a kidney 
specialist, I am also a tenured staff physician at James J. 
Peters Veterans Administration Hospital in New York. I am also 
Assistant Professor of Medicine at Mt. Sinai School of 
Medicine.
    In addition, I serve as Medical Director for the nonprofit 
organization, Doctors Against Forced Organ Harvesting, DAFOH, 
which is comprised of medical professionals from around the 
world who investigate the practice of illegal organ 
transplantation. We are particularly concerned about the 
reports of organ harvesting from Falun Gong practitioners in 
China who, we believe, have been victimized on a very large 
scale.
    The medical community has known about unethical organ 
transplantation in China since the 1990s. At a congressional 
hearing in 2001, it forced their hand and direct evidence of 
unethical organ transplant practices in China surfaced.
    Dr. Wang Guoqi, a Chinese medical doctor, testified to the 
House of Representatives Subcommittee on Human Rights. Dr. Wang 
testified that prisoners receive blood tests in prison to 
determine their compatibility with interested donors. On 
execution day, the prisoners who are to become organ donors are 
the first to die. That was over a decade ago. Since then, 
things have gotten worse, much worse.
    There are vastly more transplants in China today than the 
identifiable source of organs. The government of China has 
openly admitted to using the organs of executed prisoners. But 
even if we were to assume that every single execution results 
in organ transplant, there is still not enough to account for 
the vast discrepancy between organ donations and the transplant 
operations.
    Falun Gong practitioners are the most likely source of many 
of the organs used in transplant procedures in China over the 
past decade. There was an enormous increase in transplants 
after 1999, with no reported changes in the organ donation 
process.
    The one thing that did occur in 1999 was the beginning of 
the persecution of Falun Gong, which now stands as the alleged 
explanation for the 41,500 official transplants from 2000 to 
2005 and would explain the donors. Even if we use the Chinese 
Deputy Minister Wang Jiefu's own data, there were approximately 
30,500 unexplained source organs from 1997 to 2007.
    Mr. Ethan Gutmann, an adjunct Fellow of the Foundation for 
Defense of Democracies painstakingly interviewed the victims 
who were imprisoned in China, as detailed in his chapter in the 
book, ``State Organs.'' His estimate is that 65,000 Falun Gong 
practitioners have been killed for their organs. We have every 
reason to believe that organ harvesting is ongoing in China to 
this day.
    According to a report from NTD-TV [New Tang Dynasty TV], a 
patient this year traveled from Taiwan to Mainland China, to 
Tianjin First Central Hospital and received concurrent liver 
and kidney transplantations. It only took one month to find a 
matching liver and kidney, while he had waited for years in 
Taiwan. Organ harvesting is an ongoing problem and it remains 
widespread. Fortunately, the movement to stop this gruesome 
practice is gaining momentum.
    The Taiwan Government is now requiring citizens to provide 
details of the transplant from the surgeons and donors if they 
go abroad to have an organ transplant, and subsequently seek 
health insurance coverage for their post-operative treatments.
    Starting in May 2011, instructions from the American 
Journal of Transplantation state that the publication will not 
accept manuscripts whose data is derived from transplants 
involving organs obtained from executed prisoners.
    In the January 2012 issue of the Journal of Clinical 
Investigation, an editorial stated that the practice of 
transplanting organs from executed prisoners in China appears 
to be widespread. They have vigorously condemned this practice 
and effective immediately will not consider manuscripts on 
human organ transplantation for publication, and so on and so 
forth.
    As you can see, there has been progress, but more needs to 
be done. Membership in an international professional society by 
Chinese transplant professionals must be conditioned by 
acceptance that no organs will be used from executed prisoners.
    Insurance companies must ensure that no executed prisoners 
are the source of organs used in their studies. I urge the U.S. 
Government and anyone with any knowledge of organ harvesting to 
publicly release all evidence they have with regard to China's 
use of prisoners as a source for organ donation.
    Those are the steps we can take. Some of them are underway. 
Let us strive further and even faster. I would like to express 
my deepest gratitude to the CECC for holding this hearing, and 
especially to the honorable chairman, Christopher Smith. You 
have been a true champion in advocating for Falun Gong and 
human rights.
    I particularly applaud your recent effort, the Dear 
Colleague letter, expressing concerns about China's forced 
organ harvesting from prisoners of conscience, particularly 
from Falun Gong detainees, and asking the Department of State 
to share any information they have received about unethical 
organ harvesting in China, including anything that Wang Lijun, 
a Chinese police chief who met with the consulate officials in 
China might have divulged to U.S. consulate officials.
    One is believed to have been intimately involved in organ 
harvesting and has received an award for innovation in organ 
harvesting by the government. Also, as a police chief who 
directly oversaw the persecution of Falun Gong in his 
jurisdiction, which included the hospital. Thus, this 
information may hold the key to unlock the mystery of organ 
harvesting in China. Revealing this information may put an end 
to this horrific crime against humanity. Thank you.
    [The prepared statement of Dr. Xu appears in the appendix.]
    Chairman Smith. Dr. Xu, thank you very much for your 
testimony.
    Without objection, all of your full statements will be made 
a part of the record because they are very detailed and very 
chilling in the information they convey to this Commission.
    Dr. Xu, if I could just ask you first, I would note 
parenthetically when I held a hearing back in the mid-1990s on 
organ harvesting, Harry Wu, the great survivor of the laogai, 
actually helped smuggle out a man who was a guard who gave 
expert testimony and eventually got asylum, because he 
obviously could not go back, about executed prisoners. He 
showed how they would execute the prisoners, take their organs, 
the pain and the suffering often accompanying that because 
anesthesia was not given to the prisoners.
    Hearing your testimony talk about how much worse this has 
gotten and the numbers that you have in your testimony is 
absolutely numbing. You point out, for example, that Ethan 
Gutmann has estimated that 65,000 Falun Gong practitioners have 
been killed for their organs.
    I remember reading a book some years ago about the Japanese 
Unit 731, which did horrific experimentation on especially 
Chinese but also on others--he was the Josef Mengele, of the 
Nazis, but in this case for the Japanese, a horrifying war 
crime and crimes against humanity. Yet, this is being 
replicated today.
    As you pointed out, Dr. Wang was so upset--tormented is the 
word you used--after he followed orders to remove the skin of a 
still-living prisoner in October 1995. The incident prompted 
him to alert the international community to the inhumane 
practice of organ harvesting in China. As you and others have 
pointed out, it has only gone from bad to worse.
    So I thank you, and I thank all of you for bringing one 
abuse after another that is imposed upon the Falun Gong to the 
attention of this Commission, but this practice and the 
widespread nature of it begs correction. Actually, we need to 
do far more than we have done to combat it.
    So my question to you is: Are we doing enough, the United 
States, the President, the Congress? How is the United Nations 
doing on this? I mean, they have the Human Rights Council that 
is supposed to be taking up these issues. It seems to me that 
very often if it's not Israel that's in the crosshairs, very 
little is done human rights-wise by the Human Rights Council. 
So if you could speak to that as well.
    You also point out, Dr. Xu, about the monitoring at a 
national level. When someone goes and gets an organ transplant, 
there needs to be a filing as to who was the provider of that 
organ, and under what circumstances. Because when they do come 
back, as we all know, they're going to need anti-rejection 
drugs like CellCept and other things that are very expensive, 
but they work.
    But for all of that after-care, if the organ has been 
procured in a totally inhumane way, we need to know it and 
people need to be held accountable. So if you could speak to 
what we could do legislatively as well, and others who would 
like to join in on that question.
    Dr. Xu. Thank you, Chairman Smith. The persecution 
[inaudible] just to give you an example [inaudible] Dr. 
[inaudible] effort to expose [inaudible] and the Israeli 
Government has implemented legislation on this that they will 
not cover patients for their medical care if they got the organ 
from tourism overseas.
    In our country, I think what we can do is institute similar 
legislative changes to expose the truth of what is going on in 
China, to expose what organ trafficking involves, to expose the 
live organ harvesting especially going on in China. If our 
citizens know that if you go to China to receive an organ that 
another person has to die, I think our citizens would stop 
going there, and so other citizens around the world would do 
the same.
    We can also, at the economic level, implement legislative 
changes, such as, we can have a witness protection program so 
that doctors, who I believe are the most powerful witness to 
stand in front of you to testify against the crimes against 
humanity--if we don't offer such protection, I think it's very 
difficult to have a doctor to come forth and who is involved in 
this crime to testify.
    Other things, like we could--at the government level, as I 
mentioned, we can have--for example, as you mentioned, when 
patients get organ transplantation overseas often the operation 
is a butchered operation and less than our standards.
    When they come back home--like Dr. Gabriel Danovitch, my 
dear colleague who is an expert in transplantation--when he 
sees patients who have high complications and whose mortality 
and morbidity are much higher than our standards, and they 
spend much money and impose a bigger economic burden to our 
country to take care of these patients post-operatively. I 
think that is how I can answer your question.
    Chairman Smith. Could you tell us what kind of profit is 
derived per organ? Who gets it? What are the countries where 
the recipients are coming from? Is it the United States, Japan, 
South Korea, Taiwan? Is there any kind of breakdown? Do we have 
any detailed information concerning who they are?
    Dr. Xu. I cannot give you the exact number or precise 
number offhand.
    Chairman Smith. Sure.
    Dr. Xu. But what I can tell you, like, Taiwan has 
recipients on the order of the hundreds and thousands. Saudi 
Arabia, the richest countries, richest states, they can afford 
this kind of tourism. They are a large portion of the 
recipients. Certainly the United States, but because 
anecdotally my colleagues have seen patients returning home 
getting an organ from China who received post-operative care.
    In terms of the price for each organ, I think it's on the 
order of $60,000, for example, for a kidney. For a heart, it's 
over $100,000. For a liver, it's on the order of $80,000 to 
over $100,000. The precise number is advertised in China's 
hospitals' Web sites. This number I can provide to you, to 
precise numbers, but it appears to be in that range.
    Chairman Smith. Now, in a parallel way, I never visited it, 
but I did look at it on the Web when it was in this area--The 
Bodies Exhibition. What struck me was how unbelievably healthy 
the people look--there was some East German doctor that 
perfected this method of preserving those people.
    There have been suggestions that they are Falun Gong and 
that they are incredibly healthy, they're prisoners, and then 
they are killed for these exhibitions. It's not the same as 
organ harvesting obviously, but it's the same macabre genre. Do 
you know anything about that?
    Dr. Xu. I focused my study on organ harvesting, but I also 
was told of such body preservation of young people that were 
killed and they are Falun Gong practitioners. I understand, 
because when Falun Gong practitioners are detained, some of 
them are afraid of their family, friends, and relatives being 
persecuted if they disclose their name, so some of them don't 
even tell the police their name. So those people are subject to 
being a very vulnerable group of prisoners. I would not be 
surprised--in fact, there is some evidence to suggest--that 
those bodies come from Falun Gong practitioners.
    Chairman Smith. Cochairman Brown?
    Senator Brown. Well, thank you, Chairman Smith.
    Dr. Xu, one more question on that and then I want to ask 
Mr. Chung some questions and others. You had mentioned 
membership in international organizations and pharmaceutical 
companies. What do you suggest we do, how can we help, and how 
can those two groups, membership in international physician 
organizations, in allowing Chinese or not allowing Chinese 
physicians into those organizations, and the role of 
pharmaceutical companies.
    There are a number of U.S. companies that do a lot of 
production of pharmaceuticals in China. I know that's not 
related to this, but there is certainly a connection between 
our countries and the pharmaceutical industry that way.
    Do you have thoughts on how we can, perhaps in terms of 
hope to answer some of the issues that Chairman Smith brought 
up, how to stop this practice by working with international 
organizations and international physician organizations and 
with the drug companies?
    Dr. Xu. We are not opposing the pharmaceutical companies 
from setting up their shops to manufacture their goods to serve 
the patients. However, I think if they do a clinical trial to 
develop new drugs and if they use the organs which are from 
executed prisoners, living prisoners, Falun Gong practitioners, 
the international community should condemn and should oppose 
such a practice. If they manufacture a drug, let's say you 
order whatever anti-rejection medicine for FDA-approved use, I 
think that is standard practice and we have no objection to 
that.
    In terms of what the international community, medical 
community, can do to end this horrific crime, one thing we 
propose is to have the membership to ask the training centers, 
the hospitals, to stop taking trainees from China who will not 
sign the affidavit that they will not participate in organ 
transplantation involving executed prisoners.
    I think that's a step we can take. Until the international 
community is satisfied that Chinese law on organ transplant is 
effectively implemented, like foreign funding agencies, medical 
organizations, or individual health professionals should not 
participate in any government--China--meetings on organ 
transplant research.
    Foreign companies that currently provide goods and services 
for China's organ transplant program should stop if they know 
their services and goods are involved in organ transplantation 
which is coming from executed prisoners.
    Foreign governments should not issue visas to doctors, to 
trainees, to medical professionals who are involved in the 
organ or body tissue transplantations involving executed 
prisoners. I think that's a step we can take.
    Senator Brown. Do you have evidence that U.S. or Western 
companies are doing clinical trials in China using either 
living prisoners doing clinical trials or using organs from 
executed prisoners?
    Dr. Xu. In fact, there was at least one company I know of, 
however, I cannot recall the name of the company. If I do, I 
should probably give it to you in a private manner. Because of 
our effort to expose the truth at different meetings, 
international meetings such as World Transplant meetings, that 
company has stopped and withdrew their status using the 
compound of chemicals to test the efficacy of their organ 
donations--organ transplants. In addition to this company, 
whether there are more companies involved, I do not have an 
answer to that. I don't know.
    Senator Brown. Okay. Thank you.
    Mr. Chung, thank you, again, for being here. This 
commission has done a series of hearings that Chris Smith has 
convened on all kinds of human rights abuses. Talk to us if you 
would about if you believe the campaign by your family, by 
organizations in Taiwan and outside of Taiwan, and just 
international human rights organizations, if those efforts, you 
think, moderated the treatment you received, that the treatment 
was less harsh as a result of those efforts, were they or not, 
and do you think those efforts play a role in being freed as 
you were, after far too long in confinement?
    Mr. Chung. Sure. I believe that I safely came back to 
Taiwan because of those people supporting me, many Taiwanese 
people in public supporting me. Everybody knows my case. That 
is the main reason that I can safely go back to Taiwan.
    Senator Brown. The other side of that is that Chinese 
authorities--I mean, nobody likes being preached to or told 
what to do by people, by outsiders. Nobody does. We don't like 
it when other countries criticize our behavior, and the Chinese 
Government doesn't like it when we do that, understandably to a 
point.
    Is there some chance that authorities dig in when we are 
critical of their practices and we speak out, when this 
commission or individual elected officials or human rights 
advocates like Ms. Cook speak out for you against the kinds of 
practices aimed at you, that it causes the Chinese officials to 
dig in more and resist and make the treatment worse in some 
cases?
    Dr. Xu. I think they do everything to hide their ugly 
things. They are afraid that what they've done, those ugly 
things, will be exposed. So we have to let everybody know what 
they have done, those ugly things.
    Senator Brown. Okay.
    What lessons from your experience should you tell this 
country, should you tell people in this country that pay 
attention to Chinese-American relations and Taiwan-American 
relations, and Taiwan-Chinese relations? So what lessons would 
you take from your experience?
    Dr. Xu. The most important thing is to let everybody know 
what they have done. They hide everything. They control the 
media, they control Internet access for their citizens. They 
hide everything. They control any media they can. So the most 
important thing is, the things they hide, to expose. That's 
what I think is the most important thing that we can do to stop 
the persecuting or anything.
    Senator Brown. Do you think your family members in China 
face persecution for your speaking out today or face 
persecution for your speaking out on human rights for the last 
several weeks?
    Dr. Xu. Yes, including my family in Taiwan. We are 
potentially in some kind of unsafe condition. But in my case, I 
think everybody is watching so I think basically we are safe 
just because everybody is watching.
    Senator Brown. Okay.
    Mr. Hu, you were one of many--I thought Ms. Cook's history 
was very good, the sort of documentation of how Falun Gong 
was--I'm not sure you used the word ``celebrated,'' but close 
enough, in the 1980s and into the 1990s, and then what happened 
in the mid-late 1990s.
    So many military personnel were practitioners of Falun 
Gong, apparently. Mr. Hu, did most of the personnel in the 
Chinese military who were practicing Falun Gong, did they cease 
to be practitioners? Did they stop practicing? And those that 
did and those that didn't, what happened to them?
    Mr. Hu. First, if I can correct one of the time issues. 
Falun Gong started in 1992 in Mainland China.
    Senator Brown. Oh, in 1992? Okay. Thank you.
    Mr. Hu. As far as I know, starting in 1992, a lot of 
military personnel, just like a lot of civilian people, started 
to practice Falun Gong. In 1999, the Communist Party started to 
persecute Falun Gong and we learned about the 7-20 [July 20th] 
incident. From that date on, we were prohibited from connecting 
with each other.
    So we could only communicate with each other in private. I 
could only connect with less than 10 military officials who 
formerly practiced in the same practice site with me. When I 
left China, I could only make contact with two of them, they 
were still practicing.
    When you ask the question, what happens to these people, 
for those who continue to practice like myself? We would be 
dismissed from the military. For those who do not want to give 
up but still want to remain in the military, they will receive 
forced transformation.
    Actually, in fact, China, under the rule of the Communist 
Party, within that realm, all the military officials, 
government officials, and the public are banned from practicing 
Falun Gong. That's my answer. Thank you.
    Chairman Smith. Thank you very much, Chairman Brown.
    Just a few final questions. Mr. Hu, what was your rank in 
the military? You talked in your testimony about how the 
soldiers respected you because you were an officer, but you 
were subjected to endless hours of brainwashing. What does that 
brainwashing look like? Do they try to say that it is a 
psychological disorder to be Falun Gong?
    I read the People's Daily frequently and I am amazed that 
the propaganda is so intense almost on a daily basis, at least 
in the American version of the People's Daily, and I'm 
wondering what that brainwashing looked like.
    Second, earlier in the year I was visited by a number of 
high school students, the equivalent of high school from China. 
None of them spoke English. They were here on some visitor's 
program. We had about a two-hour meeting and I asked them very 
specific questions about Falun Gong.
    The prejudice and the bias against the Falun Gong, a direct 
result of the propaganda and what's being taught in the 
schools, was mind-boggling. I challenged every one of their 
views and they had no answers, other than that Falun Gong is 
wrong and horrible, and went on and on.
    I am wondering, since there are so many college students, 
and some high schoolers, here in the United States, what effort 
is the Falun Gong undertaking to educate them as they sit on 
U.S. campuses and European campuses about the big lie that they 
have been fed by Beijing with regard to the Falun Gong? Hate 
radio works. Hate TV works. We saw that in Rwanda, where it led 
to genocide. So if you could speak to that.
    Charles Lee, in his testimony, talks about how China is 
facing an unprecedented moral crisis and is going overboard in 
trying to destroy Christians, Buddhists, Uyghurs, and Falun 
Gong. Is it because of the moral crisis? Is the dictatorship 
that fragile?
    Finally, are Falun Gong in any way singled out for even 
worse persecution under the one-child policy as a means of 
eliminating Falun Gong children? I mean, Rebiya Kadeer 
testified some time ago that forced abortion is being used as a 
means of genocide, that systematically the Uyghurs are being 
eliminated at birth or immediately prior through these programs 
and it's part of a planned elimination of the Uyghur people. 
That's not all to Mr. Hu, but if you could about the 
brainwashing.
    Mr. Hu. The degree of the brainwashing that is experienced 
in the military compared to prison was different. In my 
testimony I mentioned that when I was detained in the military 
compound the soldiers were respectful to me because I was still 
an officer within the military.
    Compared to the other Falun Gong practitioners, I did enjoy 
a certain level of respect. Whereas, the other practitioners 
would be scolded and tortured every day. I didn't experience 
that when I was still in the military.
    What the soldiers did to me is that they would prohibit me 
from learning what was going on in the outside world; the 
window, for example, was blocked by a cotton quilt. I was 
monitored 24 hours a day and they needed to have two shifts of 
people monitoring me. So I would have four people watching me 
at any given time.
    Even while I was asleep, they would be standing right by 
me. Each morning after I woke up, they would play a video at 
very high volumes. This video defamed Falun Gong. For most of 
the time, they would find people from other agencies to attempt 
to brainwash me. They would tell me bad things about Falun 
Gong.
    You asked what rank I held when I was with the military. I 
was mainly conducting administrative work in an office. My rank 
was equal to a major level.
    I would say the level of brainwashing in prison was much 
more severe. I was imprisoned in Tilanqiao Prison in Shanghai. 
One Falun Gong practitioner was locked with two criminal 
prisoners in a three-square-meter cell. The two criminal 
prisoners chosen to stay with us were usually the more vicious 
criminals and they were ordered to ``transform'' us. If their 
transformation was not successful, they would not be let out 
earlier. But if they could transform us, their sentence would 
be reduced.
    This is a method that the authorities have been using for a 
long time. Many Falun Gong practitioners, if they were put into 
detention centers or prisons, like myself, would face a long 
time of scolding and torture. I was forced to do labor. I was 
subjected to brainwashing sessions where I was forced to sit 
inches from a video monitor with deafening speakers blaring 
hateful messages. Under such circumstances, I spent two years 
at Tilanqiao prison in Shanghai.
    During the last two months of my time in prison, because I 
was not transformed, the level of persecution actually 
increased. Each day they would forbid me from sleeping. As soon 
as I fell asleep, they woke me up in a very violent way.
    In this situation I had no way but to make a hunger strike. 
After two days of hunger strike, I was almost in a coma. In 
that situation they sent me to a hospital, but I did not 
receive any medical treatment. They stretched out my limbs and 
bound me to a bed.
    At the same time, they injected a kind of substance that 
gave me a severe headache. They also force-fed me. I spent the 
entire month bound to the bed. I had to relieve myself in bed, 
too.
    It was a situation that human beings really cannot stand. 
But, I did survive that period.
    Let me go back to the brainwashing activities of the 
military. At first, they said bad things about Falun Gong. They 
fabricated some stories and examples, trying to persuade me to 
give up my belief. When I argued back with them, they had 
nothing to say. When they had nothing to say, they started to 
show me a report that the government did at that time.
    From that report, I saw two sets of statistical data. The 
first data, I don't remember the precise time over which it was 
collected, told at that time there were over 80 million Falun 
Gong practitioners in China. A second survey was conducted 
after this first one because by that time the government had 
already began to think there were too many people practicing. 
The survey team thought too high a number would cause a 
negative impact, so then they came out with a new number, which 
was 60 million practitioners. They asked me, ``How could the 
government be happy with so many people not being atheist? How 
could they allow this many people to practice Falun Gong? '' 
This is what I experienced in military detention.
    From these personal experiences, I learned that the 
persecution the Chinese Communist Party used against Falun Gong 
practitioners was based lies and violence.
    In the beginning, they used lies to deceive the Chinese 
public and the people in the international community. As a 
result, the general public would be deceived by all these lies 
when they were not really aware of the truth of Falun Gong.
    But they could not deceive people like us who knew the 
truth of Falun Gong. To people like us, they would use violence 
to try to transform us. That is why, when I was in the 
military, I refused the transformation. They dismissed me and 
then later put me into prison. However, to those in the public 
who were not aware of the truth of Falun Gong, the lies did 
take effect.
    That is why, when you might have talked to the Chinese 
students who were visiting this country, they would give you 
some negative comments about Falun Gong. That is the result of 
this lies-based education. For people like us who are 
practitioners now in the United States, we have tried our best 
to tell the people in China and in the world the truth of Falun 
Gong.
    So I sincerely hope that the U.S. Government, the U.S. 
Congress, could provide us with more support and address the 
serious persecution of human rights. Thank you.
    Senator Brown. One last question. Ms. Cook, his comments 
about the college students coming here and their beliefs about 
Falun Gong. Do you find in your extensive kind of travels and 
studies and observations with human rights, do you find in 
China that neighbors and colleagues at work, or relatives of 
persecuted Falun Gong practitioners sometimes rise up, speak 
out, show support? What do you see in Chinese society sort of 
around the practitioners' social networks when they are 
persecuted?
    Ms. Cook. I haven't had such conversations in China with 
people, but speaking with people who have come out it's 
interesting because it seems that there has been a change over 
time. Initially, quite a few people, especially after the 
incident of the supposed self-immolation in 2001 and some of 
the other propaganda, a lot of practitioners talked about how 
their own family members would be afraid of them. Their brother 
was worried that they were going to do something to them or to 
their children.
    To the credit of individuals like Mr. Hu, they have spoken 
to their family members about the lies told about Falun Gong, 
but increasingly a lot of Falun Gong literature also touches on 
the lies and the propaganda of the Communist Party more 
broadly. And they have managed to convince those they speak 
with. Many talk of their family members' attitudes changing.
    What you see happening is things like family members going 
to hire lawyers, so you have the human rights lawyers then 
going to defend Falun Gong practitioners, despite the risks, in 
part because the family members of those Falun Gong 
practitioners who may not be practitioners themselves have gone 
to seek out the lawyers to get their help.
    Increasingly, you're seeing these cases of petitions, that 
family members have started, to rally villagers who will then 
actually sign petitions calling for the release of a Falun Gong 
practitioner.
    But in other ways I think a lot of the change happens more 
quietly. So in conversations even with people from some Chinese 
Government think tanks, in private, they'll admit that the 
campaign against Falun Gong was a mistake. It's just that they 
can't say that publicly because of their own position and that 
they may be put at risk.
    So when you speak to people publicly, there are a lot of 
people who still have very negative views of Falun Gong. But 
you also see people who are aware, even on the inside of the 
system, who have started to change their views.
    I just wanted to make one more comment also with regard to 
the organ harvesting issue. There is a two-prong approach that 
can be taken. One aspect is to respond to what is very clearly 
happening and the question of where these organs are coming 
from, because clearly China does not have a voluntary organ 
donation system. Whether they're coming from executed 
prisoners, or increasingly the evidence that they may be coming 
from Falun Gong or also from Uyghurs, there's the element of 
what we can do with regard to transplant tourism.
    But Ethan Gutmann's research also showed that some of these 
organs, originally in the Uyghur case, were going to high-
ranking Chinese officials. So you also have a market for these 
things within China. The other prong would be to seriously 
investigate and create some kind of mechanism, I would think, 
to really look into these questions about whether it's 
pharmaceutical companies, whether it's medical exchange 
programs and mechanisms of accountability, not just with regard 
to the transplant tourism but also with regard to the whole 
industry itself. Because one could see a situation where, 
besides the tourism, people within China, including possibly 
Party officials, may be the recipients of these organs.
    So I just wanted to mention, in terms of looking into that 
investigative side, to follow up on some of the research that 
individuals like Ethan Gutmann or others have done. As you saw, 
there are still a lot of questions about how this is actually 
playing out and how it may be spreading to other groups.
    We have seen generally with the campaign against Falun 
Gong, that tactics and entities like the 6-10 Office have 
started to be used to target other individuals, whether they're 
spiritual groups or ethnic minorities. There are a lot of 
Uyghurs who have disappeared as well, so there's a real 
question of what the actual current scope is of these organ 
transplant abuses. Thank you.
    Chairman Smith. Thank you very much to all of you for your 
very detailed testimony. It certainly helps our Commission do a 
better job, and hopefully our government. Thank you so much.
    I would like to now welcome our second panel. But as you 
go, Dr. Xu, you mentioned Dr. Wang. I think it's worth noting 
very briefly from his testimony back in 2001, and I would just 
quote the pertinent part. He says,

          Before the execution I administered a shot of heparin to 
        prevent blood clotting to the prisoner. A nearby policeman told 
        him it was a tranquilizer to prevent unnecessary suffering 
        during the execution. The criminal responded by giving thanks 
        to the government.
          At the site, the execution commander gave the order to go and 
        the prisoner was shot to the ground. Either because the 
        executioner was nervous and aimed poorly, or intentionally 
        misfired to keep the organs intact, the prisoner had not yet 
        died but instead lay convulsing on the ground.
          We were ordered to take him to the ambulance anyway, where 
        the urologist extracted his kidneys quickly and precisely. When 
        they finished, the prisoner was still breathing and his heart 
        continued to beat. The execution commander asked if they might 
        fire a second shot to finish him off, to which the county court 
        staff replied, ``Save that shot. With both kidneys out, there's 
        no way he can survive.''

    That is brutality beyond comprehension.
    Thank you for your testimony, and thank you to this panel.
    I'd like to now ask our second panel if they would proceed, 
beginning with a medical doctor by training. Dr. Charles Lee 
pursued his medical studies at Harvard Medical School in the 
mid-1990s. In 1999 when the Chinese Communist Party began 
persecuting Falun Gong, Charles decided to go to China to help.
    He was arrested unlawfully and sentenced to three years in 
prison. He returned to the United States in 2006. I would say 
parenthetically that no one has done more and been more 
tenacious in defending Falun Gong than Charles Lee, so thank 
you for being here today.
    We will then hear from Professor James Tong, who is a 
Scholar of Comparative Politics, specializing in Chinese 
politics and political violence. He is currently director of 
the Center for East Asian Studies at the University of 
California at Los Angeles.
    We will then hear from Caylan Ford, an independent scholar 
and human rights consultant currently residing in Ottawa. She 
holds honors in World History from the University of Calgary, 
and a master's degree in International Security and Chinese 
Politics from George Washington University.
    She has authored numerous publications, including academic 
papers and op-eds in publications like the Washington Post and 
the Christian Science Monitor. Most recently, she co-authored a 
manuscript on the current status of Falun Gong in China, which 
is now under review with a leading China journal.
    Then we will hear from Mr. Xia, Senior Director of Policy 
and Research at the Human Rights Law Foundation. He's an expert 
on Chinese politics, the structure and functioning of the 
Chinese propaganda and judicial systems, and a range of 
extralegal Communist Party entities involved in human rights 
abuses in China.
    Over the past decade, he has overseen research and 
investigations contributing to numerous analytical reports. He 
has presented his research and analysis at the European 
Parliament, the United Nations Human Rights Commission, and 
academic institutions in the United States and Southeast Asia. 
He has a rich and multifaceted Chinese cultural background, 
including work with military personnel, a university lecturer, 
and medical research here in the United States.
    Dr. Lee?

STATEMENT OF CHARLES LEE, M.D., SPOKESPERSON FOR GLOBAL CENTER 
            FOR QUITTING THE CHINESE COMMUNIST PARTY

    Dr. Lee. Thank you very much, Chairman Smith and Cochairman 
Brown, and all the distinguished members and staff members of 
the CECC for giving me this opportunity to testify today.
    Falun Gong actually had members from 70 to 100 million 
people, practicing at the end of 1998, according to government 
sources. Since the persecution started, the severity is 
tremendous. According to the 2006 U.N. Special Rapporteur 
Report, two-thirds of the torture cases in China were against 
Falun Gong practitioners. The torture methods include sexual 
assaults, beatings, shocks with electric batons, and violent 
force-feedings with feces and salt solutions.
    The cruelty of this persecution is unprecedented. We have 
heard of these organ harvesting issues for a long time. What is 
more, Chairman Smith mentioned about the Body Exhibit. We have 
this investigative report from the World Organization to 
Investigate the Persecution of Falun Gong, which confirms that 
those body exhibits, most of them were of Falun Gong 
practitioners. So I can give this report to you later.
    Chairman Smith. Actually, I would like to make that, or at 
least a major part of that, part of our record.
    Dr. Lee. Okay. That is good. I will give that to you.
    What we have heard, the Nazi's, after the gas chamber was 
used on those Jews, they used their hair as pillow stuffing and 
their skins for lampshades and gloves, and their bones were 
ground for fertilizer. What the Communist Party has been doing 
to the Falun Gong practitioners is very much comparable, 
sometimes even more horrific. They harvest organs when people 
are alive and then use the body's remains for the body 
exhibits--to maximize their profit.
    For the deaths of Falun Gong practitioners, there are three 
levels of evaluations. The first one, is that we have 3,627 
reports of deaths which have been well documented and confirmed 
by Falun Gong practitioners inside China, but there are still a 
lot of people missing.
    The organ harvesting--deaths--estimates by David Kilgour 
and Matas--50,000 people, and 65,000 by Ethan Gutmann. But the 
actual number could be much, much bigger than this because the 
CCP has always been manipulating the numbers. When they feel 
like the numbers are not good for them, they can just scale it 
down.
    Another thing is that China is a big country. They have 
about a 300 million transient population in China. These 
include the migrant city workers from the countryside, and tens 
of millions of appellants who constantly appeal to the 
government for their injustices, and also millions of 
unyielding Falun Gong practitioners who have lost their jobs, 
school, and families and they left their hometown to escape the 
persecution. In the past decade, many of them have disappeared 
or vaporized and nobody can trace them down.
    Also, in March 2006 there was a retired military doctor 
that revealed that there were 36 concentration camps for Falun 
Gong practitioners in China. The biggest one he claimed was in 
Jilin Province called 672-S Camp, which held 120,000 Falun Gong 
practitioners. On the other side, there are tens of millions of 
Falun Gong practitioners who have recovered from their 
illnesses, including terminal diseases, and benefited from 
improved health.
    The persecution on Falun Gong in the past 13 years has 
forced many of them into giving up the practice and, as a 
consequence, facing deteriorating health and eventually dying. 
My mother actually is one of them. So the death caused by the 
persecution should have reached several millions if all types 
of death are included.
    What is outlined here is only part of the clues on this 
heinous crime to humanity. It is extremely important for 
governments and people, both in the West and the East to know 
and find out the scale and the severity of largely undisclosed 
persecution.
    Much more efforts are needed to stop this crime against 
humanity and to fully investigate and lay down the framework 
for the long-overdue justice to be served. I would say that the 
persecution of Falun Gong is comparable to the Nazi's holocaust 
and genocide. It's a very big issue and we really need much 
more efforts.
    On the other side, Falun Gong practitioners have been 
peacefully resisting in the persecution. In the last 13 years, 
even though they have had so many people tortured to death, 
there is no single case in which Falun Gong practitioners used 
violence against the perpetrators.
    Practitioners have been trying their best to reveal the 
truth in China and overseas. Also practitioners outside of 
China have developed media outlets as well as firewall 
circumvention software to help people in China.
    I am one of those people. I went to China to bring true 
information to the Chinese people and I was detained and later 
arrested in 2003. When I was unlawfully imprisoned, they also 
tried everything possible to brainwash me and intimidate me in 
addition to the physical torture and the forced slave labor. 
The brainwash sessions lasted for all three years.
    They forced me to watch TV programs defaming Falun Gong and 
praising the Communist Party. Very often they have cut off all 
of my information sources for weeks on end, not even letting me 
talk with anybody. After those periods of isolation they would 
subject me to intensive brainwashing sessions in the hope that 
my resistance would be reduced.
    If I weren't an American citizen whose case was 
internationally known, the treatment I experienced would have 
been much worse. I am thankful very much for this strong 
support from friends around the world, especially the U.S. 
Congress, that allowed me to come back to this country with my 
body intact and my will unbroken.
    Another thing I want to emphasize is the awakening of the 
Chinese people during this decade. While I was imprisoned I 
wondered to myself how it was that people could so readily 
abuse and torture their own compatriots, and I wondered to 
myself how they allowed themselves to be deceived and how they 
came to be so full of hatred.
    At the end of 2004, the book titled, ``Nine Commentaries on 
the Communist Party,'' published by Epochtimes, has given 
answers to these questions and truly led to a historic 
awakening of the Chinese people. In the past 60-plus years, the 
Party distorted the Chinese people's sense of right and wrong 
and taught them to really view each other as enemies and to 
struggle against each other. The Party's ideology is so 
pervasive that people are even unaware of their inability to 
think independently.
    What is more, from a young age, Chinese people are taught 
that the Party and the country are the same concept, so 
whenever someone criticizes the Party they fear that it is an 
attack on the Nation of China and on themselves as Chinese.
    What has happened in the last eight years is that more and 
more people are quitting the Communist Party membership and 
other organizations affiliated with the Communist Party. There 
are many people who have stood out, like attorney Gao Zhisheng. 
He quit the Communist Party in 2005 and announced that it was 
his happiest day because he denounced the Communist Party and 
he was no longer part of the Communist Party.
    These people are making the choice to live according to 
their own conscience. That is really an awakening of the 
conscience and not according to the will of the Party, and they 
are refusing to participate in further violations against human 
rights. The process of denouncing the Party known in Chinese as 
``Tuidang'' is thus a deeply spiritual, personal, and moral 
process and a method of reconnecting with traditional Chinese 
values of human-heartedness and compassion.
    To date, there are 129 million people in China renouncing 
and quitting the Party, taking this important step. More and 
more people's consciences are free from the CCP's control. The 
broad social and political environment is changing. The CCP is 
losing the battle for the hearts and minds of the Chinese 
people. This is a process that will ultimately lead to the 
CCP's disintegration.
    Today, Chinese people are becoming unafraid of suppression 
and crackdowns by the CCP regime, and more and more people are 
taking a public stand to support Falun Gong and oppose the 
persecution.
    I would like to conclude my testimony by thanking the 
leadership of Congressman Smith and Congressman Andrews, along 
with the other 106 Members of Congress from 32 States for their 
bipartisan ``Dear Colleague'' letter to Secretary Clinton 
explaining the serious concerns over China's forced organ 
harvesting from prisoners of conscience and asking the 
Department of State to release all information about organ 
harvesting in China, including what Wang Lijun might have 
shared with U.S. diplomats while seeking asylum at the U.S. 
consulate in Chengdu. To my knowledge, the Department of State 
has not yet responded to the ``Dear Colleague'' letter.
    We believe that the United States is the world leader in 
protecting human rights and has a moral obligation to speak out 
and help bring an end to this horrific crime against humanity, 
and we also believe that by doing this the United States will 
protect itself from being further deceived and harmed by the 
CCP regime. I did submit a report on the Quitting CCP movement, 
so maybe you can take that for the record.
    Thank you very much.
    Chairman Smith. Dr. Lee, thank you very much for your 
testimony and for your leadership.
    Professor Tong?
    [The prepared statement and report of Dr. Lee appears in 
the appendix.]

  STATEMENT OF JAMES TONG, ASSOCIATE PROFESSOR, DEPARTMENT OF 
    POLITICAL SCIENCE, UNIVERSITY OF CALIFORNIA-LOS ANGELES

    Mr. Tong. Chairman Smith, thanks for organizing this.
    I have personally learned from this hearing from the other 
witnesses. I have done research on Falun Gong. Of course I've 
read many accounts of persecution of the Falun Gong, I have 
even read some of the publications by other witnesses, but they 
are not as moving as hearing them saying it firsthand, in 
person.
    So, let me begin with what Mr. Hu earlier alluded to, which 
is that Falun Gong was founded in 1992. This means that this 
year is the 20th anniversary of the Falun Gong. At the 
anniversary, the Falun Gong, as well as its Grand Master Li 
Hongzhi, was inundated with many greetings from China. In all, 
there are 2,788 greeting cards from all over China from six 
different administrative regions in China, as well as 23 
occupational groups, including teachers, military, law 
enforcement, and steelworkers, et cetera.
    What this suggests is that: (1) there is an extensive 
network of Falun Gong survivors who outlived the 1999 
crackdown; (2) there has been regular and frequent 
communication with the global Falun Gong community; and (3) 
China's regime is either less willing or less able to persecute 
them.
    There are some interesting developments. One, is that the 
Chief Procurator, the equivalent of the Attorney General in 
China, has to deliver an annual report to the national 
legislature in China.
    In this annual report, he has to list what the major law 
enforcement problems facing China were in the previous year. 
From 1999 through 2002, the Falun Gong was listed as a major 
law enforcement problem in China. But from 2004 onward, it has 
not been listed as such. That is on the national level.
    China has 31 provinces. In each of these provinces, each of 
the provincial procurators also has to make an annual report to 
the provincial legislature. In 1999, 29 out of the 31 
provincial procurators also listed Falun Gong as a major 
problem in their province; in 2000, 28 of the 31.
    But through 2004 onward, then the number has become single 
digits. In the last three years, 2009, 2010, 2011, there is not 
a single province which lists the Falun Gong as a major law 
enforcement issue in its jurisdiction.
    There are other developments as well. One of the earlier 
witnesses mentioned the 6-10 Office. The 6-10 Office was 
created on June 10, 1999, with the exclusive function to manage 
the Falun Gong problem. But starting in 2002, it changed its 
name to become the Leading Committee on Maintaining Social 
Stability, along with changes in its function. Its function is 
no longer exclusively on handling the Falun Gong. It has to 
deal with other law enforcement issues like peasants 
demonstrating against being evicted from their land, workers 
for being fired because their factories were closed, and also 
citizens protesting high prices.
    Other developments also suggest that Falun Gong is no 
longer perceived as a serious political threat. If it was an 
important policy matter, then the Politburo would convene a 
meeting, the Central Committee would issue an important 
document, and the entire national media would be launched to 
get involved on the campaign. Xinhua, the official news agency, 
would have a special commentary. The People's Daily would have 
an editorial, and then China's Central Television would have a 
special program on the case. These were all part of the 
crackdown campaign in 1999, but in the past decade none of 
these things have happened.
    Similar changes also take place at the local level. Unlike 
what happened in 1999, there are no roadblocks to stop Falun 
Gong practitioners from going to Beijing or to provincial 
capitals. There has been no systematic checking of hotels or 
rental properties for registered Falun Gong members.
    Now, this is not to suggest that Falun Gong has been 
decriminalized, nor does this suggest that this is the end of 
persecution in China. For sure, as Mr. Hu earlier suggested, if 
you are a member of the People's Liberation Army or if you work 
for the government or you work for the Party, you would be 
expelled from the military, from the government, from the 
Party.
    And if you unfold a banner of the Falun Gong in public, if 
you participate in collective meditation in a public park, if 
you print or distribute Falun Gong publications, you will also 
be arrested. And if you have been registered as a Falun Gong 
member, then you are under a surveillance network which is 
either in your residence or in your workplace. So, all those 
things would still be true.
    It is not a case of persecution or no persecution. It is a 
case of different levels of persecution and different degrees 
of perceived threat. It is similar to the case in the United 
States, where there are five levels of perceived risks of 
terrorism. So the levels of risks are the severe, the high, the 
elevated, the guarded, and the low levels. Right now we're in 
an elevated level of risks as far as the Department of Homeland 
Security is concerned.
    So if you look at the Falun Gong problem in China, 
certainly the case was severe in 1999, and from 2000 to about 
2003 it was high. But right now it is probably in the low and 
guarded level. On special occasions like, say, May 13, which is 
the foundation day of the Falun Gong, or July 20, which is the 
anniversary of the crackdown on the Falun Gong, then it would 
be elevated. Then on special events like the 2008 Olympics, 
then the perceived risk level would be high.
    In my prepared statement I have dealt with other issues and 
I will refer interested parties to look at my prepared 
statement. Thank you.
    Chairman Smith. Thank you, Professor Tong.
    Ms. Ford?
    [The prepared statement of Mr. Tong appears in the 
appendix.]

STATEMENT OF CAYLAN FORD, INDEPENDENT SCHOLAR AND HUMAN RIGHTS 
                   CONSULTANT, OTTAWA, CANADA

    Ms. Ford. Thank you. I'd like to thank the Congressional-
Executive Commission on China for convening this very important 
hearing today.
    I'd like to begin my testimony with a story about one man 
whose experience I believe is representative of Falun Gong 
practitioners in China. This is the story of Qin Yueming. He's 
a father and businessman from Yichun City in the northeastern 
province of Heilongjiang.
    Qin learned about Falun Gong in the spring of 1997 while 
visiting a friend's home. That evening he practiced Falun 
Gong's one-hour meditation for the first time, and borrowed a 
copy of its central text, Zhuan Falun.
    Soon, Qin's family and friends noted that his temperament 
changed for the better. He was no longer irritable. He gave up 
drinking, stopped quarreling with his wife. Neighbors recall 
that he took it upon himself to repair the potholes on Lixin 
Street where he lived. Witnessing these changes, Qin's wife 
also began practicing Falun Gong, as did the couple's two 
daughters and several of their neighbors.
    In October 1999, three months after the persecution of 
Falun Gong was launched, Qin traveled to a local petitioning 
office to appeal against the persecution. He was sent 
immediately to the Yichun City forced labor camp for two years. 
Not long after his release in April 2002, security agents broke 
into his home, took him and his wife and their 15-year-old 
daughter into custody.
    In a Kafkaesque trial, Qin was sentenced to 10 years at the 
Jiamusi Prison. There he endured regular torture and 
humiliation as guards sought to coerce him into renouncing his 
spiritual faith. In the spring of 2010, the Communist Party's 
Central 6-10 Office initiated a new three-year campaign to 
intensify the ideological reeducation of Falun Gong adherence 
across the country.
    Party Web sites in every province of China carried details 
of the campaign, which set quotas for each region, specifying 
the percentage of adherents who were to be ``transformed,''--a 
process, as you've already heard, of coercive and often violent 
indoctrination that ends when the victim renounces Falun Gong.
    On February 1, 2011, the Jiamusi prison where Qin Yueming 
was held established a ``Strict Transformation Ward'' in 
compliance with the 6-10 Office directives. At least nine Falun 
Gong practitioners were transferred to the ward. Within two 
weeks, three of them were dead.
    Qin was the first victim. Less than five days after the 
establishment of the Strict Transformation Ward, his wife 
received a phone call from the prison informing her that her 
husband had died, ostensibly of a heart attack. He was 47 years 
old.
    When she arrived at the prison, she found his entire back 
covered in deep purple bruises, with dried blood around his 
nose and mouth. Other inmates and a sympathetic guard related 
that he'd been violently force-fed the night before. They 
believed a feeding tube may have punctured his lung.
    The two other men who were killed were 48-year-old Yu 
Yungang--abducted in 2009 and sentenced to eight years in 
prison--and 55-year-old Liu Chungjing. They all died within 
days of each other.
    But Qin's story did not end here. News of the deaths at 
Jiamusi quickly were related via an underground network of 
Falun Gong adherents and published on Web sites overseas. His 
oldest daughter issued a petition to authorities demanding 
redress and accountability for his death. Soon, the petition 
garnered over 15,000 signatures.
    I should mention as well that Qin's wife and his youngest 
daughter were sentenced to a forced labor camp because they 
were seeking a death certificate, and seven other Falun Gong 
practitioners were sentenced to prison terms ranging from 11 to 
14 years simply for visiting Qin's widow. Those sentences were 
handed down just two months ago.
    Similar petitions to the one that I've alluded to have 
sprung up in Heilongjiang, Tianjin, Hebei, Shandong, Liaoning, 
Henan, and other provinces, demanding justice for Falun Gong 
practitioners. They have been signed by thousands of ordinary 
citizens, including members of security forces.
    The petitioners have not changed the will of Central Party 
authorities. Every year they launch renewed efforts to 
eliminate Falun Gong and undermine public sympathy for the 
practice. In 2007, as the Congressional-Executive Commission on 
China documented, security czar Zhou Yongkang, a Politburo 
Standing Committee member, ordered the nation's security forces 
to wage a ``Strike Hard'' campaign against Falun Gong ahead of 
the 17th Party Congress and the Beijing Olympics. References to 
this crackdown were found in provincial jurisdictions of every 
province in China.
    In the first six months of 2008, there were at least 8,000 
Falun Gong adherents who were abducted by security agents, 
typically from their homes. In 2009, the Central CCP leadership 
initiated the 6521 project aimed at intensifying surveillance 
and suppression of Tibetans, democracy activists, and Falun 
Gong practitioners. The campaign was rumored to have been led 
by Xi Jinping.
    Zhou Yongkang led his own top-level CCP committee which 
exhorted security agencies to ``closely watch out for and 
strike hard against Falun Gong.'' Top officials have 
consistently launched such campaigns, the recent three-year 
transformation campaign being one iteration.
    Now, interestingly, as Dr. Tong mentioned, anti-Falun Gong 
propaganda has been largely absent at the national level since 
around the time of the 16th Party Congress in 2002. The 
campaign's continued prominence in national media was 
attracting unwanted international attention to the suppression 
and the new generation of leaders may have decided that a 
better PR strategy was to allow the issue to fade away.
    But while the high-profile national propaganda campaign 
petered out, propaganda activities against Falun Gong at the 
local level have continued unabated. Earlier this year, for 
example, the Central 6-10 Office launched a comprehensive 
campaign to clean up Falun Gong information or literature.
    The initiative mobilized neighborhood committees to tear 
down Falun Gong messages that were plastered on billboards, 
light posts, and telephone poles. In Weifang City, authorities 
were required to conduct twice-daily patrols looking for Falun 
Gong pamphlets. In Qingdao, they demanded 24-hour vigilance 
against Falun Gong's posters.
    The notices also required neighborhood committees to hold 
study sessions to unify their thinking on the anti-Falun Gong 
work. They mobilized local Party functionaries to screen anti-
Falun Gong forms and go door-to-door, collecting promises from 
families that they would not support Falun Gong.
    A Party document uncovered in several geographically 
disparate locales earlier this year exhorts authorities to 
create a climate in which Falun Gong are ``like rats running 
across the street that everyone shouts out to smash. Don't 
leave them any space.''
    A Party document from the Laodian township in Yunnan 
Province dated May 15, 2010, notes that the Falun Gong 
adherents in custody, however, are ``becoming more and more 
difficult to transform.'' The practitioners were returning to 
the practice with greater frequency and new people were taking 
up the practice. It further notes that Falun Gong is ``fighting 
with us to win the masses and the struggle to win people's 
hearts is still very intense.''
    Party documents published this year repeatedly admonished 
cadres to ``overcome their paralysis of thought'' and truly 
understand that the anti-Falun Gong struggle has always been a 
``long-term, important political task to grasp unremittingly.''
    The continued suppression campaign launched against Falun 
Gong evinced two things. First, to senior leaders of the 
Communist Party, the eradication effort remains of great 
importance and continues to command tremendous human and 
material resources.
    Recently released prisoners from China continue to report 
that in many detention facilities, Falun Gong practitioners 
comprise the majority population. In the Beijing Women's Labor 
Camp, for instance, they are between two-thirds and 80 percent 
of the imprisoned population. They are singled out for abuse, 
and of course there are ongoing allegations that the organs of 
Falun Gong prisoners of conscience are sold for transplant.
    Yet, the official Communist Party literature coming out in 
recent years also reveals that the 13-year-old campaign to 
defeat Falun Gong has failed, that local cadres are 
increasingly unwilling to pursue the campaign, despite orders 
from their superiors, that more and more people are returning 
to or taking up the practice, and that despite all of its 
efforts, the Party is losing the battle for the hearts and 
minds of the Chinese people.
    Thank you.
    Chairman Smith. Ms. Ford, thank you very much for your 
testimony and for your insights.
    Mr. Xia?
    [The prepared statement of Ms. Ford appears in the 
appendix.]

    STATEMENT OF YIYANG XIA, SENIOR DIRECTOR OF POLICY AND 
           RESEARCH, THE HUMAN RIGHTS LAW FOUNDATION

    Mr. Xia. Thank you, Chairman Smith and Cochairman Brown, 
for holding this hearing. Thank you to the CECC.
    I would like to address how this persecution operates 
without a legal basis. We have established the argument that 
the Chinese Government never legally banned Falun Gong. This is 
based on Chinese lawyers who defended Falun Gong practitioners, 
based on the Chinese Constitution and the Chinese laws.
    Since the Falun Gong practitioners didn't break any law, 
the regime couldn't apply the rule of law to deal with the 
Falun Gong issue. It initiated a political campaign instead. 
Political campaigns cannot co-exist with the rule of law, so 
the regime used special tactics to create a very sophisticated 
system, including setting up a new chain of command outside the 
legal system, this is the 6-10 Office; using an existing Party 
system, such as the Political and Legal Affairs Committee 
[PLAC]; using internal Party documents to override the laws and 
the Constitution. It used this method to persecute Falun Gong. 
So the regime created a system to systematically break the law, 
to persecute Falun Gong. I have included details in my written 
statement. This is the result: When the regime systematically 
breaks its own laws, then nobody is safe. That is the current 
situation in China.
    I will also talk about why Wang Lijun is so important. Wang 
Lijun fled to the U.S. Consulate in Chengdu, setting off one of 
the biggest political scandals in China in recent years. But 
most people don't realize that Wang Lijun's human rights abuses 
went way back, way before he took the position in Chongqing.
    So I would like to mention, Wang Lijun set up and directed 
a research facility in Jinzhou, Liaoning Province to study and 
refine the harvesting of organs from prisoners. In 2006, Wang 
Lijun received the Guanghua Innovation Special Contribution 
Award for his research on organ transplantation from donors who 
had been subjected to drug injection.
    Why is this so important? Because Wang Lijun's case was 
well documented and published by the Chinese media before he 
fell, so the evidence is already there. We know the following 
facts from the Chinese media and official reports.
    First, Wang admitted that he did the organ removal 
operations.
    Second, from the published information, his experiments at 
least included developing a brand-new protective fluid to 
preserve the organs that enabled the recipient's body to 
receive the organ.
    Third, during the award ceremony for his organ research, 
Wang explained that the so-called on-site research is the 
result of several thousand intensive on-site cases. According 
to available data, the executions in Jinzhou from 2003 to 2006 
would not exceed 100. So the numbers don't match.
    Wang Lijun doesn't have medical training. Without any 
medical background, he collaborated with top universities, both 
inside and outside China. He was just a middle-level city 
police chief. The only reason for the cooperation is that he 
could offer something the others couldn't: Taking organs from 
live human beings.
    Last, execution is not under a police chief's jurisdiction, 
and so he is not supposed to execute prisoners.
    Then, who are those thousands of prisoners who are under 
the police chief's jurisdiction? This is where Falun Gong comes 
in. In November 2009, a World Organization to Investigate the 
Persecution of Falun Gong investigator interviewed a former 
member of the Armed Police.
    The armed policeman witnessed a female Falun Gong 
practitioner's organs being removed when she was alive. At the 
end of the interview, the officer mentioned that he had taken 
orders from Wang Lijun, who had said to eradicate them all, 
referring to Falun Gong practitioners.
    Taking the entire interview into account, the investigators 
concluded that although the organ harvesting incident the 
police officer witnessed had occurred in Shenyang, the victims 
were likely from Tieling, where Wang was the police chief, and 
that her detention and prior torture had occurred there.
    Finally, I would like to say something about the new 
leadership. There are several reasons to believe that the 
policy of persecution of Falun Gong will not have a big change 
in the near future under the new leadership. The new leadership 
will face a big challenge on Falun Gong issues. The Hong Kong 
Trend magazine published an article in October listing three 
major challenges that the new leadership would face. One of 
them was how to handle the anti-Falun Gong campaign.
    But why can't the policy of persecuting Falun Gong change? 
One reason is that the CCP lacks self-correction mechanisms, 
and the CCP has never fully redressed a political campaign 
targeted at ordinary Chinese people, never. The Cultural 
Revolution is the only exception. But the Cultural Revolution 
was targeted at the Chinese Communist Party itself and at high-
ranking Party officials.
    Some newly selected members of the Standing Committee of 
the Politburo are also involved in the persecution. Before and 
after the 18th Party Congress, the persecution of Falun Gong 
has become more severe, along with harassment of other 
religious groups. Finally, the social, political, and economic 
crisis the CCP is facing will get worse, thus the human rights 
abuses will get worse.
    Thank you.
    [The prepared statement of Mr. Xia appears in the 
appendix.]
    Chairman Smith. Mr. Xia, thank you very much for your 
testimony.
    Let me begin. Professor Tong, your information which you've 
conveyed to the Commission, I think, is very interesting, 
particularly Table 2 where you talk about how, on the national 
level, the enforcement problem from the various counties shows 
that it probably peaked in 2001, maybe 2003, but then it began 
to abate.
    Now, my question is, so no one draws the wrong conclusion 
that somehow there's been an easing, is it that--and the others 
might want to speak to this as well, and Ms. Ford, you spoke 
about that, and so did Mr. Xia--there seems to be a morphing of 
how they do it and a change of direction rather than a lack of 
persecution or an abatement of the maltreatment of Falun Gong 
practitioners. Is that true or is it a mixed bag?
    I mean, I've heard that local cadres are unwilling, and yet 
the labor camps are overflowing with Falun Gong practitioners, 
but at the local level it continues unabated in terms of how it 
is implemented. What is the accurate picture in terms of the 
level of persecution? Has it changed or has it abated? Are the 
numbers growing of Falun Gong practitioners?
    In light of this gross disinformation campaign, this hate 
campaign that's being leveled by the government at all levels, 
are people moving away from the Falun Gong?
    Mr. Tong. I would rely on the other, more knowledgeable 
Falun Gong practitioners to comment and say whether the number 
of Falun Gong practitioners inside China has been growing or is 
about the same. Compared with, say, 1999 when we had more or 
less reliable numbers, the lowest range is 2.3 million and the 
highest number, as Mr. Hu mentioned, is 80 million. The 2.3 
million--I believe, is every one of these 2.3 million number 
has a name, has an address, so these are actual people with 
faces.
    But after 1999, because the Falun Gong has gone 
underground, the number will be difficult to know, whether it 
has been growing or not. It will also be difficult to know at 
the local level whether the persecution has been intensifying 
or abating or not. China has 3,000 counties and over 700 
cities, so it's difficult to know what happens at the local 
level.
    Plus, in the case of the Falun Gong and religious 
communities, China subscribes to the policy of local 
management. So there's really no uniform national policy and 
that makes the picture all the more confusing.
    Chairman Smith. But is there a national strategy that's 
being implemented at a local level in a way that is more 
efficacious for the outcome? I mean, I think, Mr. Xia, you've 
spoken about the extralegal chain of command.
    Mr. Xia. I would like to answer this question.
    Chairman Smith. Yes, please.
    Mr. Xia. I would like to answer this question. First, this 
is a political campaign of the Party. The 6-10 Office belongs 
to the Party, not the state, so it's not required to report to 
the People's Congress. It's an option, but it's not required. 
This is first.
    Second, the 6-10 Office continues to exist independently 
from the Maintaining Stability Office. People mix them together 
because, first, the Maintaining Stability Office was 
established on the experience of persecution of Falun Gong. So 
at the beginning, the office members were overlapping, 
especially when the director of both offices are the same 
person, Liu Jing. When Liu Jing retired, the offices separated 
again. You can see it's a totally different office.
    Now, the leader of the 6-10 Office, Central 6-10 Office, is 
Li Dongsheng and the leader of the Maintaining Stability Office 
is the Vice Minister of Public Security. So it's a totally 
different person. So we cannot mix them together. But they have 
the same strategies because the Maintaining Stability Office 
learned experience from the 6-10 Office.
    This is a nationwide political campaign. Since there has 
never been any National People's Congress that authorized the 
persecution, we cannot say the persecution never happened. It's 
never been state action. It's a Party action, but it used the 
state organ as the instrument. That's my observation.
    Chairman Smith. Dr. Lee?
    Dr. Lee. I want to just mention that before the persecution 
started in 1999, the Communist Party's Sports Commission did an 
investigation on Falun Gong practitioners. They estimated there 
were 70 to 100 million people practicing Falun Gong at that 
time and the National Congress head--his name is Qiao Shi--he 
also was involved in the investigation. His conclusion was that 
Falun Gong has nothing bad, but all goodness to the society. 
Many other officials in the high-level CCP, they all supported 
Falun Gong.
    The number was mentioned and published in the publications 
before the persecution. When the persecution started, the 
Communist regime changed the number to 2.3 million. The reason 
was that they were going to scale down the numbers of Falun 
Gong practitioners because if they say there are so many 
people, like 100 million people practicing, then the target is 
too big and it's a very bad image. So those are the tactics of 
the CCP when they do these political movements. They always 
twist around the numbers.
    Another thing. Professor Tong mentioned that after 2002, 
there was almost no Falun Gong in the media in China. This is 
also the strategy, because in the first two years of the 
persecution it caused a lot of international attention. People 
saw clearly that there were human rights violations. Everybody 
was questioning, what's going on in China? So they decided to 
go underground, but the persecution never stopped, never 
reduced or abated.
    My personal case is exactly the kind of case they want to 
cover up in the persecution of Falun Gong. When they arrested 
me they tried to brainwash me, trying to transform me to give 
up Falun Gong. After they failed, they changed the tactics. 
They said we're not going to talk about Falun Gong anymore 
because your case is not a religious persecution, your case is 
a criminal case. So that's what happened.
    They did not allow me to talk about anything concerning 
Falun Gong at the court and they did not allow me to show the 
evidences, what were the reasons for which we wanted to reveal 
the truth. So that is exactly what the Communist Party wanted 
people to believe in, that Falun Gong is no longer a major 
problem in China and they do not publicize the persecution, but 
underground the persecution never abated.
    On the other side, because of the resistance by the 
petitioners, a lot of people, including those policemen, they 
found their conscience--many of them even helped Falun Gong 
practitioners in the police station and those kind of places. 
So that's like both sides of the story. So I just want to 
mention this is a tactic of the regime. Thank you.
    Ms. Ford. I would be happy to address the question that you 
had asked about members. Obviously it's a very opaque climate 
and it's very difficult to get a sound assessment. In 2009, 
there was a human rights lawyer in Beijing who told the 
Telegraph that he believed there were tens of millions of Falun 
Gong practitioners, and perhaps more significantly that the 
practice was growing. This is consistent--we find references to 
this both within Falun Gong literature and within Party 
literature. They refer to newly discovered or new practitioners 
quite frequently, actually with increased frequency.
    There was a study done by Falun Gong's primary overseas Web 
site in 2009 that produced an estimate of about 40 million 
people who continued practicing. Not only practicing but who 
had some level of contact with the wider community. This 
calculation was based on the number of underground Falun Gong 
material sites in China.
    These material sites are a Samizdat-like network that 
practitioners have established, where they upload and download 
information about Falun Gong to and from the international Web 
site. There are 200,000 of these material sites, and they 
estimated that each one was connected to dozens or hundreds of 
Falun Gong practitioners.
    There is also some evidence that comes from local-level 
documents. You will find a particular township or district 
sometimes referring to the fact that they've got 1,600 Falun 
Gong practitioners that they're monitoring, for instance. It's 
very difficult to piece together a coherent picture, but I 
think it's safe to say that the number is, I would say, still 
probably in the millions.
    As far as your question about the willingness of 
authorities at local levels to implement the persecution, my 
answer to James Tong's question is--is this a matter of the 
Party's willingness or their ability to fully sort of 
disintegrate Falun Gong--and I would say that at the Central 
level the Party is completely willing to pursue the campaign to 
its end.
    They refer to this in official documents from the 6-10 
Office at the Central level, they describe this as a matter of 
``life and death for the Party,'' as a ``test of the Party's 
ability to govern,'' in these very hyperbolic terms.
    But as Dr. Lee was mentioning, at the local level--this 
isn't to say that there aren't a good number of very sadistic 
police officers and so on, but at the local level we find 
increasingly that even members of the security forces are 
sympathizing with Falun Gong.
    You hear stories about 6-10 Officers who visit Falun Gong 
practitioners, that tell them, ``I'm going to have to arrest 
you in a couple of days because my superiors are watching, but 
don't worry, we'll let you out really fast and we'll try to 
protect you.'' So this is some of the dynamic.
    Of course, it varies from locale to locale, but 
increasingly we are finding that at the grassroots level, as 
evidenced as well by these petitioners, that people are 
increasingly sick of this and that even the cadres who are 
charged with performing this transformation work, authorities 
were having a more and more difficult time convincing them of 
the necessity of the persecution of Falun Gong.
    Chairman Smith. Let me ask you, in his testimony Dr. Xu had 
a final concluding set of paragraphs: What can we do? He had a 
number of admonitions to the medical community, to society, and 
to the U.S. Government. One, is the petition that they've 
launched, Dr. Kaplan, Dr. Centurion, and Dr. Xu. They've gained 
over 10,000 signatures within two weeks, asking that President 
Obama speak out against this horrific practice. I'm wondering 
what your thoughts are on that approach.
    Second, he also asks that Congress adopt legislative 
changes to prohibit patients from going abroad to receive 
illegal organ transplants, and then suggests a registry that 
would include the source of the organ donation. Your thoughts 
on that?
    Finally, in 2000, I authored a law that empowered the U.S. 
Government to deny visas to anyone who is involved with forced 
abortion or forced sterilization. Sadly, both the previous 
administration and the current administration has so 
inadequately enforced it, that only some 27 people have been 
denied entry into the United States, despite the fact that 
forced abortion is absolutely commonplace throughout China. So 
it has been very ineffectively implemented.
    The other side, or a contrary-positive, in 2004 I authored 
the Belarus Democracy Act, which also has a visa ban in it, and 
some 200 top people associated with the Lukashenko regime, the 
last dictatorship in Europe, are denied entry into the United 
States. The Europeans have a similar annex that lists people 
and their families who are denied entry into Europe and it has 
had a huge positive, and I think over time will have a very 
positive, impact.
    I heard from some Belarusian leaders last week at a forum 
with Freedom House that there are judges who do not want to 
handle human rights cases because they don't want to be put on 
that list and be denied access to the United States. I just got 
news a moment ago that Jacob Ostreicher, a man that I've been 
working to get out of prison at the Palmasola Prison in 
Bolivia, and I actually visited him in June and was down there 
just last week, he just got bail.
    But I introduced a bill called Jacob's Law that would say 
that anyone who is engaged in human rights abuse against an 
American will be denied a visa to the United States, as well as 
their families, so they can't send their kids here to college, 
and hopefully this will have a chilling effect on barbaric 
practices by these individuals.
    There's a bill that's pending now, and I've introduced it, 
called H.R. 2121--and I'd appreciate your thoughts on it--that 
would say that anyone who engages in human rights abuse is 
inadmissible to the United States. We have already had one 
hearing at the Judiciary Committee on H.R. 2121. Chai Ling, the 
great Tiananmen Square activist who now heads up All Girls 
Allowed, was one of those who testified, as did I.
    It seems to me that a very focused sanction of this kind 
that says to individuals who engage in barbaric practices, 
well, at the very least you're not allowed to come to the 
United States--hopefully the Europeans and other countries will 
follow suit--will have potentially a chilling effect over time, 
but will also hold to account those who commit these. It 
comports, I think, with what Dr. Xu basically is talking about, 
holding the individuals to account who commit these crimes.
    Your thoughts on a visa denial policy, and the other 
questions that I asked earlier?
    Mr. Xia. I think that the State Department already has 
questions on the online application form, do you ever, I don't 
remember exactly, ever involved in forced organ removal 
operation. They already have one. But I think it should be 
well-publicized to let everybody know.
    Another thing I would like to think about on that ``Dear 
Colleague'' letter that Representative Smith initiated and the 
petition. I think the U.S. Government should respond to those 
letters and petitions. As I mentioned, Wang Lijun's case is 
important because this is the first and only case we know that 
is published by the Chinese authorities and all the evidence 
pointed to that one person.
    Before, it was all collected evidence: How many? All 
numbers. But now this is individual. So, this is very 
important. That's why the government should get involved, 
because the individuals, the non-government organizations have 
limited resources, so the governments should get involved in 
the investigation. That's what I think.
    Another thing, really short, is there should be some kind 
of protection for whoever testifies against themselves. Because 
if the doctor who operates did the organ harvesting and then he 
testified, then he is against himself. He lost a chance to 
practice either in China or in the United States. He's against 
himself because his actions violated the ethical code. So there 
should be some kind of protection to protect those who can step 
out to testify, because whoever testifies practically loses 
everything, their reputation, career, everything.
    Chairman Smith. Like Dr. Wang.
    Dr. Lee. I have some suggestions. First, the State 
Department should speak out. We heard that in 2009 the 
Secretary of State said that human rights should not interfere 
with the trading, which is totally wrong because human rights 
are for every human being. If we do not respect human rights, 
if we do not protect human rights, we cannot be called a human 
being.
    So the U.S. Government should have this right stance. There 
should be no exceptions. If there is any human rights 
violation, the U.S. Government should speak out; let alone 
these severe, heinous crimes happening in China, as the scale 
that I just talked about. It's comparable to the Nazi's 
holocaust or genocide.
    For visa denials, the second step, we can do that in the 
legislative branch. Also, what we can do is like the Bo Xilai 
case. We know that their family has $6 to $8 billion U.S. 
dollars outside of China. We can trace this money down, maybe 
freeze these accounts. Also, for these confirmed human rights 
perpetrators--against humanity--they should be arrested if they 
come to the United States or other countries. There should be 
this kind of law and it should be explored in this direction 
later on. But the U.S. Government should speak out clearly to 
the CCP regime that no such thing could happen in this world, 
we cannot see it happening and do the trading normally. Thank 
you.
    Ms. Ford. With respect to H.R. 2121, I think it has the 
potential to be very powerful. Falun Gong sources have already 
compiled massive lists with the names, often the addresses, 
phone numbers, educational backgrounds of those who are 
particularly egregious in their use of torture and coercion in 
the persecution. So these lists already exist and are often 
fairly well corroborated.
    To give an example of why this kind of thing is powerful, 
just at the micro-level within China, one of the things that 
Falun Gong practitioners have done very effectively to mitigate 
the worst excesses of persecution is precisely to adopt a kind 
of name-and-shame tactic against the perpetrators.
    So if there's one police officer or prison guard who's 
particularly vile, they'll post information about them, about 
their crimes and their use of torture, they'll give it to the 
man's wife, to his kids, they'll put it on telephone poles, and 
that person will largely stop doing that. They will also 
publish it overseas with their phone numbers and the person 
will be inundated with phone calls explaining to them why they 
shouldn't be complicit in crimes against humanity.
    So even though that's just at the local level, the risk of 
people losing their reputation, their standing in the community 
because of these things, I think is very potent. At the larger 
level, many Chinese officials at the mid-levels and higher have 
assets abroad or have children that they've sent abroad or 
intend to and hold foreign passports, so I think it could be a 
very strong deterrent.
    On the question that was raised in the previous panel as 
well about the impact of public pressure in individual cases, I 
think the Chinese Government has sometimes been deliberately 
inconsistent in how they respond to such pressure, precisely so 
that Western policymakers can't figure out the most effective 
way to engage with them on human rights. So in some cases 
attention on a particular case can exacerbate the abuses.
    But what I have found, and I think the Falun Gong victims 
on these panels would agree, is that on a whole the pressure is 
beneficial. Take the case of Bu Dongwei, an Amnesty 
International prisoner of conscience, who was detained twice at 
the same labor camp in Beijing.
    The first time there was no international attention 
attached to his case and he was tortured very severely. The 
second time he noticed that other prisoners were still being 
tortured severely, but he was not. What he didn't know is that 
Amnesty had listed him as a prisoner of conscience, his wife 
was lobbying for him at the State Department, and that 
contributed directly to an improvement in his condition.
    Mr. Tong. Diplomacy is always a two-way street. American 
citizens are paying a very high visa fee to go to China. It's 
because the U.S. Government is requiring Chinese citizens 
coming to the United States to pay a high U.S. visa fee.
    So if we say the State Department wants to deny visas to 
certain categories of Chinese citizens, it is quite likely that 
China will also reciprocate and deny visas to certain 
categories of American citizens, so it needs to be thought 
through. That's my only comment.
    Chairman Smith. Let me just say, the State Department 
celebrated the one millionth visa granted to an American 
citizen just a few months ago, but this Chairman--me--I have 
been denied a visa, as have members of our staff, to travel to 
China because we've raised the case of Chen Guangcheng and 
wanted to visit him. So it is a one-way street.
    When you're talking about abusers, any collateral damage 
that might be done if it has any mitigating effect on the abuse 
is well worth it, in my opinion, which is why I think we need 
to promulgate lists. Again, I heard it as recently as two weeks 
ago from Belarusian leaders that certain judges--and I want to 
get more information on this to see how widespread it is--
simply will not take up human rights cases because they don't 
want to be on the list.
    I think if we are serious about it and promulgate these 
lists and hold our own government to account and say we don't 
want them coming here--when I was in La Paz, I raised with 
government officials of Evo Morales that Jacob's Law, which is 
a parallel to everything we're talking about here--we're saying 
if you want to send your kids, and you're an abuser, to 
University of Miami or some other school, forget about it 
because we're serious about abuse.
    All these other positives that you might glean from coming 
to the United States, like going on a shopping spree, enjoying 
the benefits of Disney World, or sending your kids to Yale or 
Harvard, or wherever you want to send them, from our point of 
view is part of the price of trying to help victims, because 
this Commission and everything we do on the Human Rights 
Committee and what we should be first and foremost all about, 
in my opinion, is victims, to try to mitigate and lessen the 
number of victims.
    It seems a no-brainer that holding abusers to account, they 
should be before a court of law, on their way to the Hague, or 
if it's an international issue for crimes against humanity, 
rather than whether or not there might be some corresponding 
retaliation by the Chinese.
    Bring it on. I would say to the Chinese Government, we need 
to be very serious about abuse. We have not been, and as a 
government, it goes through successive administrations that 
have been very weak and vacillating when it comes to human 
rights of the Chinese people. That has to change.
    On May 26, 1994, Bill Clinton de-linked most-favored-nation 
status from our trade policy. We have seen a deterioration--it 
was already bad, obviously--every since. I think while we may 
never get that back again, we do have other tools in the 
toolbox and we need to use them. If any of you have any final 
comments, any statement you'd like to make before we conclude 
the hearing, please. Dr. Lee? You don't have to if you don't 
want to.
    Dr. Lee. Yes. I just want to thank you and all the other 
members on the CECC for their hard work. It's extremely 
important for us to face the human rights violations in China 
because China is such a big country. As I said, even the 
transient population in China is 300 million. It's like the 
entire United States population is moving around, moving from 
city to city looking for jobs, that kind of thing.
    The impact is huge so we have to really look into these 
things and do whatever is possible. As I also said, people in 
China are awakening, so we do see hope and we do know that we 
need to do a lot more things. We hope we can do this together 
with the U.S. Government. Thank you very much.
    Chairman Smith. Professor?
    Mr. Tong. I just want to commend Mr. Smith's principled 
position on human rights.
    Chairman Smith. Thank you.
    Ms. Ford. I'll just echo that. Thank you again for 
convening this hearing.
    Mr. Xia. Thank you for holding this hearing. Another thing 
is the petition outside. I think whoever attends this meeting 
and hasn't signed, please do so when the hearing is finished. 
Thank you.
    Chairman Smith. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 12:34 p.m. the hearing was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                   Prepared Statement of Bruce Chung

                           december 18, 2012
    I want to thank Chairman Smith and Co-chairman Brown for holding 
this important hearing and inviting me to testify today.
    My name is Chung Ting-pang, manager of INTEK TECHNOLOGY CO., LTD. 
in Taiwan. I have been practicing Falun Gong since 2001. Like hundreds 
of thousands of Falun Gong practitioners in Taiwan, I follow this 
spiritual path because Falun Gong has not only brought me good health 
but also provided me with meaningful spiritual guidance.
    I traveled to Ganzhou City, Jiangxi Province to visit my family 
members on June 15, 2012. My father's ex-wife and my two elder half-
brothers live there. During the several days of visit, I didn't do any 
Falun Gong activities or contact any Falun Gong practitioners in 
Mainland China. On June 18, I was on my way back to Taiwan as planned. 
When I was just about to board the flight from Ganzhou to Shenzhen, I 
was forcefully taken away by the State Security agents. I was then 
detained for 54 days under the vague accusation of sabotaging national 
security and public safety until my release on August 11.
    My family members in both Mainland China and Taiwan didn't know 
about my secret arrest. First, I protested with a hunger strike. I 
demanded that these plain-clothed State Security agents should inform 
my family members. At the same time, I should have an attorney. 
However, my legal rights were ignored. No attorney came to my defense. 
In the afternoon of the second day of my detention, I was allowed to 
see my family members in Ganzhou City. Then, while under police 
surveillance, I was allowed to make a call home. They instructed me to 
inform my wife that I would be able to go home two days later, but that 
turned out to be a lie.
    Without the presence of my attorney, I was subject to marathon 
interrogation sessions that drove me to deep fatigue. They verified my 
answers over and over again. On July 11, I finally saw Attorney Guo 
Lianhui, who my family in Ganzhou retained for me. However, I couldn't 
communicate with my attorney in private. He only saw me once. He was 
turned down by the State Security when he requested to see me for the 
second time. During my detention, I was deprived of my basic human 
rights. I had no protection at all. My pain was beyond words.
    The place I was detained included a bedroom, an interrogation room, 
and a dinner table. Two or more people were watching me at all times. I 
had to keep the bathroom door half open--I had no privacy at all.
    The main content of the interrogations was as follows:

         1. An incident in 2003 in which I mailed TV hijacking 
        equipment to Falun Gong practitioners in Mainland China.
         2. I had once asked a Mainland China Falun Gong practitioner 
        to provide documents regarding how the Chinese Communist Party 
        (CCP) tried to systematically eliminate and persecute Falun 
        Gong. At the time, this Mainland China practitioner was an 
        officer himself. Afterwards however, he was arrested later and 
        forced to sign the so-called ``guarantee letter'' not to 
        practice Falun Gong.
         3. I tried to broadcast truth films regarding persecution of 
        Falun Gong via satellite signals in Taiwan.
         4. The wanted to know all the methods that Taiwan Falun Gong 
        practitioners use to expose the persecution of Falun Gong in 
        Mainland China.
         5. They tried to force me to provide all names, phone numbers, 
        email address and participating projects of Falun Gong 
        practitioners in Taiwan.

    Without the presence of my attorney, State Security agents 
interrogated me for a long time and threatened me if I did not 
cooperate with them. These threats included:

         1. That they would bring in a harsher team to handle me.
         2. That they would change my civil detention to a criminal 
        detention. Once this change was made, I would then be detained 
        with other prisoners and interrogated behind bars.
         3. That they would send me to judicial authorities and 
        threaten that I would have to serve at least three years of 
        jail term.

    What is most unacceptable to me was the State Security Bureau in 
Ganzhou City forced me to sign a ``Confession Statement'', and asked me 
to admit that I committed a crime to endanger (Chinese) national 
security, public safety, and sabotage public property. They said my 
help to intercept TV signals resulted in losses for the nation and 
society. Among all these nonsense accusations, they never asked why I 
would think of using satellite interception technology to help the 
Chinese public understand the truth of the persecution of Falun Gong 
(in the first place); Chinese people are entitled to freedom of belief 
under the Chinese Constitution, and they should be not be persecuted 
for what they believe.
    The day before they allowed me to go back Taiwan, they told me that 
as early as one week before I arrived in mainland China, they had 
already prepared to put me under ``house arrest'' and waited for me. 
This showed that when I was preparing for the trip to mainland, they'd 
known my itinerary and were ready to take action against me.
    Three weeks or so before I went back Taiwan, they began to threaten 
me to admit my ``guilt'' and ``remorse.'' I was forced to write and re-
write many times the statement. The night before they let me go back to 
Taiwan, Jiangxi Television (the government TV station in Jiangxi 
Province) was arranged to be where I was held in Nanchang City (the 
capital city of Jiangxi Province) to video-tape my ``remorse,'' and I 
was threatened ``not to be too outspoken'' after I got to Taiwan. If I 
spoke out, they threatened to release this ``remorse'' video.
    Undeterred, I called for a press conference on the third day after 
I landed in Taiwan, openly stating that:

         1. What I wrote in that so-called ``confession statement'' and 
        all the interrogation records, were not done with my free will. 
        All the details I provided (during the interrogation) were made 
        up by me to deal with their threats.
         2. I will continue to spread the truth to the Chinese public 
        until the day the persecution ends.
         3. As an individual living in free and democratic Taiwan, it 
        is an appropriate and just action for me to help the Chinese 
        public, who have been deceived and persecuted by the Chinese 
        community party.

    Not until I returned to Taiwan did I realize that Falun Gong 
practitioners in Taiwan, non-government organizations, and the people 
of Taiwan had put in tremendous efforts to rescue me: about 200,000 
people in Taiwan signed a letter campaign that urged President Ma Ying-
jeou to strive to gain my release; over 30 non-government organizations 
came together to organize activities and on three occasions accompanied 
my family during their petitions at the Office of the President. As far 
as I know, the main reason that I was able to come back to Taiwan as a 
free man was the support from the people in Taiwan, while the 
Administration was relatively passive. Up to now, the Taiwan government 
has not formally responded to the requests of myself, my family, and 
other organizations regarding the protection of Taiwanese personal 
safety in Mainland China.
    Additionally I wish to make two points clear.
    First, the Chinese Communist does not only persecute Falun Gong 
practitioners in China; they have also extended the persecution 
overseas toward Taiwan. According to the Taiwan Falun Dafa Association, 
I am the 17th Taiwanese Falun Gong practitioner subject to persecution 
from the Chinese Communist Party.
    Second, the Chinese Communist Party has hired spies overseas to 
illegally collect Falun Gong practitioners' personal information and 
information of their activities. The regime has illegally abducted 
foreign Falun Gong practitioners that travel to China. The 
international society should condemn these behaviors.
    In Taiwan, I am a respected and highly educated intellectual with a 
decent job and no criminal record. I am the same as the hundreds of 
thousands of people in Taiwan who practice Falun Gong and adhere to the 
principle of Truthfulness-Compassion-Tolerance. I enjoy the freedom of 
expression and freedom of belief guaranteed by the Constitution of the 
Republic of China. I also join the great efforts of tens of millions of 
fellow Falun Gong practitioners in spreading the facts of the 
persecution and calling for the international community to stop this 
prolonged persecution.
    Finally, I would like to thank members of U.S. Congress and 
European Parliament for their efforts to secure my release. At the same 
time, I am also worried about many Falun Gong practitioners in prisons, 
labor camps, and detention centers in China who are facing torture and 
even facing the risks of been killed for their organs. The United 
States is the world's leader in human rights. I hope that the U.S. 
Congress and President Obama publicly ask the Chinese Communist Party 
to stop the persecution of Falun Gong. I sincerely hope that when the 
regime's crimes against humanity are finally put to an end, all the 
Chinese people around of the world will be able to thank the righteous 
efforts from the United States.
    Thank you.
                                 ______
                                 

                    Prepared Statement of Hu Zhiming

                           december 18, 2012
    I wish to express a heart-felt thank you to Chairman Smith and Co-
chairman Brown for holding this important hearing. I am truly honored 
to be your guest and hope that my experiences below will be helpful to 
you.
    I have organized my written testimony into four sections.

         (1) Personal experiences of finding and practicing Falun Gong, 
        both before and after the persecution.
         (2) Resistance to the persecution.
         (3) Details of three instances of detention over 8 years and 
        two months.
         (4) Observations on how practitioners' resistance to the 
        persecution has rendered it unsuccessful and how it cannot be 
        sustained for much longer.
     (1) personal experiences of finding and practicing falun gong
    I was born in northeast China, Liaoning Province, in the middle of 
the Cultural Revolution, in 1972. Because my father had been labeled a 
Rightist, the first fourteen years of my life were spent living on 
different farms with my parents and three older brothers, where we 
received ``re-education'' through manual labor. I vividly remember as 
part of the re-education posters depicting Confucius as a ferocious 
monster and liar when he was criticized by the CCP in its political 
activity. I also remember being terribly cold. Our clothes were always 
tattered and I believe that because of this, I had a runny nose, 
congested sinuses and horse breathing for my entire life.
    My views on Confucius and the cultural legacy he represents, as 
well as my nasal condition dramatically changed when I first started 
practicing Falun Gong in November, 1997. At that time I had already 
earned a B.S. in Radar and a M.S. in Informational Technology from the 
Air Force Engineering University in Xi'An City. I was living and 
working at the Institute of Military Training Equipment under the Air 
Force Headquarters in Beijing. Although I was an Officer in the 
military and enjoyed a good lifestyle, I felt empty. Chinese people as 
a whole knew little of our cultural heritage, which had been 
systematically destroyed by the CCP through its many political 
activities. Still, very few people, if any, believed in Communist 
ideology, either. I believed there was more to life than material 
pursuit.
    My older brother, who was living in San Francisco, mailed the main 
book of Falun Gong, Zhuan Falun, to me. I immediately discovered that 
this practice represented a precious opportunity for any individual to 
raise their spirit, as well as the best opportunity for society to 
stabilize and return to a level where ethical behavior was cherished. 
In these early weeks of practice, the most memorable experiences were 
the inexplicable healing of my life-long respiratory and sinus 
condition as well as dramatic improvement in my outlook of the world. 
The military bureaucracy is extremely politicized and corrupt, with 
bribery and embezzlement being the norm. By adjusting my behavior to 
Falun Gong's guiding principles of Truthfulness, Compassion and 
Tolerance, by taking personal interest more lightly and by striving to 
be unaffected by others wronging me, I felt lightness in my spirit and 
in my step. Work and relationships went more smoothly and I found a 
happiness I had never experienced.
    I benefited greatly at this time from the veteran Falun Gong 
practitioners at the practice site within the Air Force Command 
University, which was across the street from my campus. 40 to 50 Air 
Force officers or professors regularly attended the morning exercises.
    At this time, 1998-1999, Falun Gong practice sites were everywhere. 
Just about every morning, when I left my campus for errands around 
Beijing, I would see scores, even hundreds of people practicing the 
Falun Gong exercises in parks or grassy boulevards.
                  (2) my resistance to the persecution
    Starting in April of 1999, the situation changed dramatically. 
After the ``4-25 Incident,'' in which as many as 10,000 Falun Gong 
practitioners appealed to the central government to, among other 
things, release Falun Gong practitioners detained in Tianjin city and 
stop publishing articles defaming Falun Gong, most workplaces and 
housing units around Beijing put pressure on people to stop practicing 
Falun Gong. Nearly all of the 40-50 Air Force officers and professors 
in my practice group continued, however.
    By June, the situation was more tense. China had sought to have Mr. 
Li Hongzhi extradited from the United States. Mr. Li published a short 
article in response but many practitioners were not able to read it as 
the regular channels among practitioners had been disrupted. Perhaps 
members of the Falun Dafa Buddha Research Society had already been 
detained. Perhaps in some areas the Internet was already blocked. I did 
not know the exact reason but I printed this and several other 
subsequent articles by Mr. Li from the Minghui.org, a website founded 
by US - based practitioners. I distributed copies to the military 
officers.
    By mid-June, the Minghui website was blocked and I had to 
circumvent the blockade using techniques that most computer users would 
be unable to use. At this time we also lost our practice site as a 
regulation had been passed prohibiting military personnel from 
practicing Falun Gong. We tried to practice outside the Air Force 
compound but were usually forced to disperse by public security.
    On July 13, Mr. Li published another short article. I was again 
able to print and make copies of it but by this time there were few 
people left to give it to. They no longer came out to the practice 
sites and I lost contact with them from that point on.
    On July 20, when the practice was officially banned, the whole 
country seemed to be on edge. I later learned that not only all 
military personnel, but even all workplaces and housing units across 
the country ordered all people to watch CCTV news programming that 
explained the ban on Falun Gong. Even people who had never heard of 
Falun Gong were ordered to watch it. The widespread reaction was 
initially one of shock and curiosity.
    Already relatively sheltered because I was living on a military 
compound, in the next two or three months I had very little contact 
with other practitioners. I left Beijing for several weeks in August 
and September for a military exercise and when I returned the situation 
was the same. I decided to bypass the Internet blockade again to find 
out news from the Minghui website. I learned that thousands of 
practitioners from around the country had been pouring into Beijing to 
appeal the government ban. I also learned that there had already been 
cases of abuse, including practitioners being tortured to death.
    I learned that the burden on Beijing practitioners was immense 
because hotels would not give rooms to appealing practitioners from out 
of town, and, more over, there were updates on the increasing gravity 
of the situation that the out-of-towners needed to hear. I realized 
that my skills on the computer were quite valuable at this time and 
took it upon myself to share these with other practitioners.
    By the beginning of 2000, the situation among practitioners had 
changed dramatically. It had gone from one of shock, disbelief and 
confusion to one of urgency and clarity. The persecution was getting 
more and more serious, with deaths and accounts of abuse mounting. We 
needed to be proactive.
    Then-UN Ambassador Kofi Annan was scheduled to visit Beijing in 
March, 2000. I agreed to assist in a plan to collect signatures from 
practitioners around the country for a petition that would ask him to 
intervene. As my days were generally quite busy on the military 
compound I knew I needed more time to accomplish this task and in early 
March decided to leave, with no notice.
    The political affairs committee of my workplace found out and acted 
right away. They had always known I was a practitioner but were loath 
to report me or even put a lot of pressure on me. As the military and 
political organs are different entities, they chose to bide their time 
with the many officers in their ranks who practiced Falun Gong. They 
did not want the responsibility of transforming practitioners, (who 
posed no threat to their organization, and usually, as in my case, were 
model employees,) and yet, at the same time, did not want the political 
blemish of having a Falun Gong practitioner. When I left, however, they 
needed to report my status as a Falun Gong practitioner and, now, one 
who was missing.
    They looked at the records of my apartment landline and within one 
weeks time were able to find me in the act of exchanging signatures for 
the Kofi Annan petition. They took me back to my workplace where the 
Air Force Deputy Commander criticized my boss over my situation.
    They held me for more than two months at an Air Force base outside 
of Beijing. I stayed in a bunker and was watched 24 hours a day by 4 
soldiers at any given time. The soldiers respected me because I was an 
officer but they were ordered to show me endless hours of brainwashing 
programs. I rationally explained why all of the programs were false and 
how they had not convinced me to stop practicing.
    Seeing that they couldn't convince me to quit practicing along 
these lines, officers attempted to appeal to me on ideological grounds, 
stating, ``As a Master's degree holder you are a member of the 
Communist Party? As a military officer you should be especially clear 
ideologically. How could a military officer not be an atheist? '' I 
asked for a piece of paper and wrote, ``Then I quit the Communist 
Party.''
    They then showed me a report that the Central Government had 
written on Falun Gong prior to banning it. It estimated the number of 
practitioners around the country to be 80 million which was later 
lowered to 60 million for the reason that limited the effect. The 
officers then argued, ``But you are still a military officer. Think 
about it. If so many people are practicing, including military 
officers, and they are not ideologically clear, how can our military 
continue to function properly? '' I wrote, ``then I won't be an officer 
anymore.''
    Having failed to transform me, 4 armed officials escorted me back 
to by hometown, Dandong, Liaoning Province, in May. In Dandong, they 
registered my civilian status with local authorities as a matter of 
medical discharge. They did not mention Falun Gong as doing so would 
have placed the burden of transformation on the local authorities, who 
would then have insisted that the Air Force be in charge of 
transforming me. This fact is illustrative of the means of the 
Communist Party system to carry out the persecution of Falun Gong. 
Because the Communist Party decreed Falun Gong to be illegal, it put 
pressure on the military and all levels of government to carry out the 
decree. No level of government wanted the burden of transforming Falun 
Gong practitioners as it was expensive and exhaustive, but if they did 
not they could lose favor with higher authorities who would, in turn, 
lose favor with the Central Government. It was often easier to look the 
other way.
    I stayed with my family for ten days in Liaoning Province but then 
returned to Beijing. As my records as a Falun Gong practitioner were 
only within the Air Force, I felt relatively free as a civilian. I met 
with several Beijing practitioners who were skilled in computers as I 
was. We decided that we needed to share our expertise with others 
around the country so as to create a network of people that could pass 
information to each other. More importantly, Minghui and other media 
would spread the blocked information to the international society, 
exposing the evil activity of the CCP. The free flow of information, we 
realized, was most feared by the Communist Party because it was the 
most important element to withstanding and exposing the persecution.
    Travelling around China was difficult and complicated. Out of 
safety concerns my one companion and I could not contact many 
practitioners. We started with people we knew to be genuine 
practitioners, and then asked them to organize small meetings with 5 to 
15 others who might possesses the necessary technical expertise. 
Between May and October of 2000, we established viable lines of 
communication between Minghui and trained practitioners in at least 
seven cities from all different regions.
    Through our efforts, timely news of practitioner detentions, abuse 
and deaths were reported on the Internet. In time the postings became 
detailed, including the names, addresses and phone numbers of the 
perpetrators. It was found, the years that followed, that as more and 
more information exposing the persecution was published, the pressure 
on local practitioners became less. Minghui also proved to be 
invaluable as a resource for practitioners to learn from each other 
about matters related to personal cultivation and matters of faith and 
courage.
                           (3) incarceration
    Our successes came to a halt on October 4, in the early dawn hours, 
when a group of ten police officers knocked on my Shanghai hotel door. 
I yelled loudly so as to alert two other practitioners in nearby rooms. 
They managed to escape the hotel but the officers detained me and found 
evidence of the Minghui website on my laptop.
    I went through a show trial and was charged with ``using a cult to 
destabilize society.'' They held me at a detention center for 26 months 
instead of placing me in prison because they wanted to find more 
evidence against me, an ex-military official with expertise in 
information technology. They wanted to frame me as a spy working with 
an overseas brother and possibly the American government. They wanted 
to build a story around me that would give credence to some of the 
propaganda that claimed Falun Gong was an established organization with 
a lot of funding from hostile overseas forces with political motives.
    They were unable to collect any other evidence that would help 
those claims and sent me to the Shanghai Tilan Qiao Prison for 22 more 
months. Conditions were considerably worse in the prison. Whereas 
before I was beaten for refusing to wear the detention center uniform, 
I was still permitted to practice Falun Gong exercises and read Falun 
Gong books. In the prison there was no chance for Falun Gong exercises. 
They tried their utmost to ``transform'' me.
    There were approximately 150 prisoners in my division and about 50 
were Falun Gong practitioners. Very vicious criminals with sentences 
normally over 15 years beat us regularly. Their sentences could be 
reduced if they kept practitioners from practicing or even successfully 
transform us. The guards did not beat us themselves but further incited 
the criminals by placing one practitioner and two criminals in a three-
square meter cell. As a practitioner I could withstand being in such a 
small space, but a violent criminal became even more violent under such 
circumstances.
    In addition there were times when I was forced to watch 
brainwashing programs at deafening volumes, with the TV screen only one 
meter from my face, for 16 or more hours a day. They deprived me of 
sleep as well.
    Under these conditions I was approaching rock bottom, so I started 
a hunger strike that would last from August to October of 2004. They 
bound my limbs and torso to a hospital bed so that I could not move at 
all. They inserted a feeding tube in through my nose to my stomach. I 
was in this position for over a month, during the hottest time of the 
year, unable to move, itchy from sweat as well as weeks of defecation 
matter buildup. They also injected me with an unknown substance that 
would give me headaches that I felt put me on the brink of insanity. 
During this time they also drew large quantities of blood and routinely 
examined my body.
    I survived my prison term and was released in October, 2004, having 
served a total of four years in the detention center and then prison. I 
lived in my hometown in Liaoning for six months but decided to not 
burden my parents and family members, who were not wealthy, any longer. 
I moved to Beijing to seek employment and resume work with 
practitioners there to counteract the persecution.
    Several plain-clothed policeman saw me distributing a DVD of the 9-
Commentaries to someone on the street in early September, giving rise 
to a chase and eventually capture. Another show trial ensued and I was 
again sentenced to four years in prison on Sept 23, 2005. I entered 
Beijing Haidian District Detention Center that was even more vicious 
that my experiences in Shanghai. Knowing the difficulties involved with 
a hunger strike, it took me some time to summon the will to sustain 
one. But by May 13, 2006, I was once again protesting my detention with 
a hunger strike. Guards shackled me to a hospital bed for six months 
straight and, similar to my experience in Shanghai, force-fed me 
through a tube in my nose, and injected me with drugs that numb the 
nerves. They took my blood samples and performed comprehensive physical 
examinations from time to time but never did they administer medical 
treatment for my ailments. I didn't know anything about organ 
harvesting at that time. Now looking back, I am scared, as they could 
be checking my candidacy for organ harvesting.
    In six months time I was transferred to the Jinzhou Prison Hospital 
in Liaoning Province. They no longer needed to shackle me as by this 
time I was but a skeleton on the brink of death and totally immobile. 
The force feeding continued, as did the painful injections and oddly 
placed medical exams. During the next three years, until my term 
expired, my weight fluctuated. For months at a time I would grow 
bloated and fat, seemingly due to a different force-feeding diet. Then 
I would become skeletal once again when they denied me food.
    I narrowly survived more than three years of such treatment, 
languishing on either a hospital bed or a wheel chair, until my term 
ended in September 2009. Hospital doctors advised my family that I 
would likely die and that, even if I didn't, I would be permanently 
disabled for the rest of my life.
                     (4) the persecution has failed
    The Communist Party's persecution has failed to wipe out Falun Gong 
from China and it can not be sustained for much longer. I make this 
assertion based on observations of the greater situation as well as 
personal experience.
    For the ten years I lived in China under the persecution, I spent 
eight years and two months in custody, and over half of this time 
languishing alone. After my three releases from custody I lived for a 
time with my parents in Liaoning Province. In 2000 I saw no signs of 
Falun Gong practitioner activity in Liaoning Province. In 2004 I saw 
attempts by local practitioners to place posters and signs about the 
facts of the persecution around my hometown. The attempts were 
noteworthy but they were infrequent, sporadic and were destroyed almost 
immediately. In 2009, however, I saw copious posters, signs, flyers and 
informational DVDs. Moreover, the posters hung in public places had 
been there for a long time, with ink faded from the sun and paper crisp 
from dried rain. I believe that, like my hometown in Liaoning, even the 
CCP continues to order people to persecute Falun Gong, more and more 
people know the truth of the persecution. That is, more and more people 
see through the once-widespread lies that substantiated the decision to 
ban the practice.
    I make the above assertion because I have also seen the efforts by 
people like myself, proficient in computer technology and proxy 
circumnavigation software, breed success in making Minghui an accurate, 
timely and truthful tool to expose the persecution.
    Finally, I make the above assertion based on my personal 
experience. When the doctors released me, an immobile skeleton in a 
wheelchair, to my parents and brothers in October 2009, they said I 
would likely die. For this reason the 610 Office and other public 
security personnel didn't bother my home. But I resumed my cultivation 
in Falun Dafa, studying the teachings, reflecting on matters of my 
spirit, and practicing the Falun Gong exercises. In two months time I 
could walk around my house. In three months time I could perform 
strengthening exercises outdoors. I stand here before you today, three 
years later, almost completely healed with no visible trace of the 
depraved state the persecution left me in. This is a testament to the 
power and wonder of this spiritual practice. It also perhaps helps you 
understand how I could withstand 8 years of hell and persevere in my 
faith.
    For a person of faith, his conscience, more than the physical body, 
is his life. This persecution has managed to take away physical bodies 
but it has not managed to shake the conscience of the people. I believe 
we are now seeing the people of China wake up to the facts of this 
persecution, to the facts of the Communist Party's wickedness and, 
soon, to a day when our conscience is free.
    I thank you and the great nation you represent immensely for your 
efforts to bring justice to China.
                                 ______
                                 

                    Prepared Statement of Sarah Cook

                           december 18, 2012
    Good morning Chairman Smith, Co-Chairman Brown, members of the 
commission, ladies and gentleman in the audience. Thank you for 
convening this hearing and for inviting me to participate. I have been 
asked to address the origins of the Communist Party's campaign against 
Falun Gong and in my brief time, I will do my best to cover this 
complex topic.
    Today, Chinese citizens who practice Falun Gong live under constant 
threat of abduction and torture. The name of the practice, its founder 
Mr. Li Hongzhi, and a wide assortment of homonyms are among the most 
censored terms on the Chinese Internet. Any mention in state-run media 
or by Chinese diplomats is inevitably couched in demonizing labels.
    But this was not always the case. Throughout the early and mid-
1990s, Falun Gong, its practitioners, and its founder were often the 
subjects of awards, positive media coverage, and government support. 
From 1992 to 1994, Mr. Li toured the country giving lectures and 
seminars to introduce the practice under the auspices of the state-run 
qigong association.\1\ State media reports from that period laud the 
benefits of Falun Gong practice and show Falun Gong practitioners 
receiving ``healthy citizen awards.'' In an occurrence almost 
unimaginable today, Mr. Li gave a lecture at the Chinese embassy in 
Paris in 1995, at the government's invitation.\2\
---------------------------------------------------------------------------
    \1\ David Ownby, Falun Gong and the Future of China, Oxford 
University Press, 2008.
    \2\ Benjamin Penny, ``The Religion of Falun Gong,'' (University of 
Chicago Press, 2012.
---------------------------------------------------------------------------
    As word spread, Chinese from every strata of society--doctors, 
farmers, workers, soldiers, some of them Communist Party members--began 
taking up the practice. Sites of daily exercise groups in Beijing, for 
instance, included professors from the prestigious Tsinghua University 
or employees of state media like Xinhua or China Central Television. 
Though students of Falun Gong would gather in groups to practice its 
meditative exercises, many saw the discipline as a personal rather than 
collective endeavor to enhance their health, mental well being, and 
spiritual wisdom. There were no signs of a political agenda or even 
criticism of the Chinese Communist Party (CCP) as one sees in Falun 
Gong literature after the persecution began. By 1999, according to 
government sources, Western media reports, and Falun Gong witnesses, 
tens of millions of people were practicing.\3\
---------------------------------------------------------------------------
    \3\ Seth Faison, ``In Beijing: A Roar of Silent Protestors,'' New 
York Times, April 27, 1999; Joseph Kahn, ``Notoriety Now for Movement's 
Leader,'' New York Times, April 27, 1999; Renee Schoff, ``Growing group 
poses a dilemma for China,'' Associated Press, April 26, 1999.
---------------------------------------------------------------------------
                          so what went wrong?
    The answer lies in a combination of ideological fears, 
institutional factors, and an individual leader's fateful decision.
    Falun Gong is a spiritual practice whose key features are qigong 
exercises and teachings reminiscent of Buddhist and Taoist traditions 
that have been an essential dimension of Chinese culture for thousands 
of years. It inevitably encourages ways of thinking outside the 
boundaries of Party doctrines. Yet for decades, the Party has 
systematically sought to suppress independent thought, be it in the 
form of religious faith or political expression. It displays a low 
tolerance for groups or individuals who place any authority, spiritual 
or otherwise, above their allegiance to the Party. For persecuted 
Tibetans, this authority is the Dalai Lama; for persecuted human rights 
lawyers, it is the law; for persecuted Falun Gong adherents, it is the 
dedication to spiritual teachings centered on the values of 
truthfulness, compassion, and tolerance.
    Falun Gong's emphasis on these three values as part of its theistic 
worldview appears to have especially attracted the Party's ire. The 
concepts seemed to conflict with Marxism and other ideas that have been 
a source of legitimacy for the CCP's authoritarian rule--like 
materialism, political struggle, and nationalism.\4\ The spread of 
Falun Gong began to be seen as a fundamental challenge to the Party's 
authority. Xinhua hinted at this in one of its articles in 1999 after 
the ban: ``In fact, the so-called `truth, kindness and tolerance' 
principle preached by Li Hongzhi has nothing in common with the 
socialist ethical and cultural progress we are striving to achieve.''
---------------------------------------------------------------------------
    \4\ Vivienne Shue. ``Legitimacy Crisis in China?.'' In Peter Hays 
Gries and Stanley Rosen (eds.), State and Society in 21st-century 
China. Crisis, Contention, and Legitimation. New York: RoutledgeCurzon, 
2004.
---------------------------------------------------------------------------
    Perhaps even more than free thinking, the Communist Party feels 
threatened by independent civil society entities and collective 
organization.\5\ As the popularity of qigong practices, and among them 
Falun Gong, grew in the mid-1990s, the Party attempted to insert itself 
into their activities and bring them under its control. In 1996, after 
the state-run qigong association with which Falun Gong was linked 
instructed the establishment of Party branches among its followers and 
wished to profit from Falun Gong, Li Hongzhi parted ways with the 
association.\6\ He intended for Falun Gong to be a personal practice 
without formal membership and shared free of charge. As it continued to 
spread in society, Falun Gong's spiritual independence was coupled with 
a loosely knit network of meditation practice sites and ``assistance 
centers'' sprinkled throughout the country.
---------------------------------------------------------------------------
    \5\ King, Gary, Pan, Jennifer, and Roberts, Molly. In Press. How 
Censorship in China Allows Government Criticism but Silences Collective 
Expression. American Political Science Review, July 2012 http://
gking.harvard.edu/publications/how-censorship-china-allows-government-
criticism-silences-collective-expression.
    \6\ Noah Porter, ``Falun Gong in the United States: An Ethnographic 
Study,'' 2003.
---------------------------------------------------------------------------
    From 1996 to 1999, many in the government and the party held 
favorable views of Falun Gong and publicly cited its benefits for 
health and even social stability.\7\ But as Falun Gong's popularity and 
independence from Party control grew, several top cadres began viewing 
it as a threat. This translated into repression that showed first signs 
in 1996. The publication of Falun Gong books by state printing presses 
was banned shortly after their being listed as bestsellers. Attempts to 
register under various government organizations were denied. Sporadic 
articles began appearing in state-run news outlets smearing Falun Gong. 
Security agents began monitoring practitioners and occasionally 
dispersing outdoor meditation sessions.\8\
---------------------------------------------------------------------------
    \7\ `An opiate of the masses?,'' U.S. News and World Report, 
February 22, 1999.
    \8\ David Palmer. ``Qigong Fever: Body, Science and Utopia in 
China.'' New York: Cambridge University Press, 2007.
---------------------------------------------------------------------------
    In April 1999, the escalating harassment culminated in several 
dozen practitioners being beaten and arrested in Tianjin. Those calling 
for their release were told that the orders had come from Beijing. On 
April 25, over 10,000 adherents gathered quietly outside the national 
petitions office in Beijing, adjacent to the Zhongnanhai government 
compound, asking for an end to abuses and recognition of their right to 
practice.
    Some observers have pointed to this incident as taking Party 
leaders by surprise and triggering the suppression that followed.\9\ 
Such an interpretation is flawed, however, when one considers that it 
was escalating harassment led by central officials--including then-
security tsar Luo Gan--that sparked the appeal in the first place.\10\
---------------------------------------------------------------------------
    \9\ Human Rights Watch, ``Dangerous Meditation: China's Campaign 
Against Falungong,'' January 2002, http://www.hrw.org/legacy/reports/
2002/china/.
    \10\ James Tong, ``Revenge of the Forbidden City,'' Oxford 
University Press (2009). In his account of the April 25 appeal, Ethan 
Gutmann takes his analysis a step further, concluding that it had been 
a set-up to create an excuse for a crackdown. Ethan Gutmann, An 
Occurrence on Fuyou Street, National Review 13 July 2009.
---------------------------------------------------------------------------
    Rather, the event was pivotal because of how individual Party 
leaders responded to it. Premier Zhu Rongji took an appeasing stance 
toward Falun Gong.\11\ He was prepared to resolve the grievances. He 
met with several of the petitioners' representatives. The practitioners 
in Tianjin were released and those in Beijing went home.
---------------------------------------------------------------------------
    \11\ Zong Hairen, Zhu Rongji zai 1999 (Zhu Rongji in 1999) (Carle 
Place, N.Y.: Mirror Books, 2001).
---------------------------------------------------------------------------
    But then-Party Secretary Jiang Zemin overruled Zhu's conciliatory 
approach, calling Falun Gong a serious challenge to the regime's 
authority, ``something unprecedented in the country since its founding 
50 years ago.'' \12\ In a circular dated June 7, Jiang issued his 
fateful order to ``disintegrate'' Falun Gong.\13\ Indeed, several 
experts have attributed the campaign to Jiang's personal jealousy 
deriving from the sincere enthusiasm Falun Gong inspired at a time when 
he perceived his own standing in the eyes of the Chinese public as 
weak.\14\
---------------------------------------------------------------------------
    \12\ Jiang reportedly made at a high-level meeting in April 1999, 
extracted from the book ``Zhu Rongji in 1999,'' cited in excerpts 
published in the Hong Kong Economic Journal, September 18, 2001.
    \13\ ``Comrade Jiang Zemin's speech at the meeting of the Political 
Bureau of the CCCCP regarding speeding up dealing with and settling the 
problem of `Falun Gong','' June 7, 1999. http://beijingspring.com/bj2/
2001/60/2003727210907.htm
    \14\ Willy Wo-Lap Lam, ``China's sect suppression carries a high 
price,'' CNN, Feb 9 2001.
---------------------------------------------------------------------------
    Whatever the specific events of the late 1990s, however, the 
repression of Falun Gong in China cannot be viewed in a vacuum. Rather, 
it is one episode within the Communist Party's long history of 
arbitrarily suppressing the basic rights of Chinese citizens, including 
via political campaigns launched against perceived ``enemies.'' The 
party's tactics have become more subtle and sophisticated in recent 
decades. But the underlying principle and institutional dynamic remains 
the same: the decision of what is approved or forbidden is made 
arbitrarily by Party leaders and the institutions--like an independent 
judiciary--that might curb their excesses are kept within the Party's 
realm of influence. This is the case with the daily censorship 
directives issued by the propaganda department and applies equally to 
spiritual movements.
    Thus, once Jiang made the decision and asserted his will over other 
members of the Politburo Standing Committee, there was little to stop 
what came next. Over the following months, Jiang and leaders like Luo 
began making preparations for a campaign to wipe out Falun Gong. 
Lacking legal authority and fearing the popularity of Falun Gong even 
among members of the security forces, Jiang created a special Party 
leadership group and related extralegal, plainclothes security force to 
lead the fight. Established on June 10, 1999, it came to be known as 
the 6-10 Office.\15\
---------------------------------------------------------------------------
    \15\ Sarah Cook and Leeshai Lemish, ``The 6-10 Office: Policing the 
Chinese Spirit,'' China Brief, Jamestown Foundation, September 16, 
2011: http://www.jamestown.org/programs/chinabrief/single/?tx--
ttnews%5Btt--news%5D=38411&cHash=2dff246d80ffd78112de97e280ce9725.
---------------------------------------------------------------------------
    In July 1999, a full-scale campaign reminiscent of the Cultural 
Revolution was launched. The full weight of the CCP's repressive 
apparatus was turned on Falun Gong. Demonizing propaganda flooded the 
airwaves. Thousands of people were rounded up. Millions were forced to 
sign pledges to stop practicing.
    Zhao Ming, a former Falun Gong prisoner of conscience and the 
subject of international rescue campaigns, explained the dynamics as: 
``the Party's machinery of persecution was there--Jiang pushed the 
button.'' \16\
---------------------------------------------------------------------------
    \16\ Leeshai Lemish, ``Why is Falun Gong Banned?'' The New 
Statesman, August 19, 2008, http://www.newstatesman.com/blogs/the-
faith-column/2008/08/falun-gong-party-chinese.
---------------------------------------------------------------------------
    One more point deserves clarification. The CCP and Chinese 
officials typically assert that Falun Gong needed to banned because it 
is an ``evil cult'' that was having a nefarious influence on society. 
The claims have not held up to scrutiny when investigated in China, nor 
when one considers Falun Gong's spread in other parts of the world, 
including democratic Taiwan. As importantly, in the context of the 
current discussion, it was only several months after Jiang initiated 
the campaign that a resolution was passed punishing involvement with 
``heretical organizations'' and that the Party's propaganda apparatus 
zeroed in on a slightly manipulated English translation of the Chinese 
term xiejiao to claim that Falun Gong was an ``evil cult.'' \17\ 
Unfortunately, today, media reports about Falun Gong often erroneously 
state that ``Falun Gong was banned as an `evil cult','' with little 
further explanation. In fact, the label came later and as noted above, 
the reasons behind it had little to do with anything ``evil'' about 
Falun Gong. By using this incomplete reference, media inadvertently 
repeat the Party line and may plant the thought in readers' minds that 
a repressive campaign that has turned millions of lives upside down 
might be justified.
---------------------------------------------------------------------------
    \17\ Amnesty International, ``China: The crackdown on Falun Gong 
and other so-called `heretical organizations,' '' 23 March 2000.
---------------------------------------------------------------------------
                 a decision with long-term consequences
    When Jiang ordered that Falun Gong be targeted, he had not 
anticipated that its practitioners would not relent easily. Though some 
renounced the practice under pressure, many resumed upon release or 
withstood ``transformation'' even in the face of torture. Over time, 
the Party escalated its tactics, enhancing the sophistication of its 
propaganda and encouraging the use of violence.\18\ Freedom House's 
publications--alongside those of Amnesty International, the United 
Nations Rapporteurs, and the CECC itself--have recorded the ongoing 
rights abuses suffered by those who practice Falun Gong in China. These 
include large-scale detentions, widespread surveillance, extreme 
torture, deaths in custody, and the sentencing of practitioners to long 
prison terms following unfair trials or to ``reeducation through 
labor'' camps by bureaucratic fiat. The abuses continue 13 years and 
two leadership changes after Jiang's initial decision, pointing to an 
entrenchment of the repression.
---------------------------------------------------------------------------
    \18\ John Pomfret and Philip P. Pan. ``Torture is Breaking Falun 
Gong.'' Washington Post, 5 August 2001.
---------------------------------------------------------------------------
    The result is that the Party now finds itself trapped. If it backs 
down, it would have to admit to a mistake that ruined millions of lives 
and tore apart families. If it stays the course, then with each day 
that passes, another Falun Gong practitioner is abducted, another judge 
imprisons an innocent person, another police officer learns he can 
torture with impunity. The effect on the rule of law and the Party's 
legitimacy is corrosive.
    Meanwhile, so long as the campaign continues, it not only affects 
Falun Gong practitioners and their families. The tactics and strategies 
developed to suppress one group in China can be quickly and easily 
applied to others. From vague legal provisions, to ``black jails,'' to 
certain torture and ``transformation'' methods, human rights lawyers 
and others have remarked on how elements first used against Falun Gong 
practitioners have since been applied to other victim groups, including 
the lawyers themselves.\19\
---------------------------------------------------------------------------
    \19\ Gao Zhisheng, ``Dark Night, Dark Hood and Kidnapping by Dark 
Mafia,'' translated and published by Human Rights in China, February 8, 
2009, http://hrichina.org/public/PDFs/PressReleases/2009.02.08--Gao--
Zhisheng--account--ENG.pdf; Teng Biao, ``A Hole to Bury You,'' Wall 
Street Journal, December 28, 2010, http://online.wsj.com/article/
SB10001424052970203731004576045152244293970.html
---------------------------------------------------------------------------
    Similarly, the entities created to target Falun Gong can be 
expanded or used as models. The 610 Office's operations have long 
stretched beyond its core task of wiping out Falun Gong. Since 2003, 
their targets have also included 28 other small spiritual groups and 
qigong organizations.\20\ The Economist reported in June that a few 
members of blind activist Chen Guangcheng's entourage of secret police 
were from the 610 Office.\21\ Meanwhile, the agency may be serving as a 
model for the Party's broader ``stability maintenance'' 
initiatives.\22\
---------------------------------------------------------------------------
    \20\ Hao's testimony before the European Parliament.
    \21\ ``Guarding the Guardians,'' The Economist, June 30, 2012, 
http://www.economist.com/node/21557760.
    \22\ Cook and Lemish.
---------------------------------------------------------------------------
    The intractable nature of the CCP's campaign against Falun Gong 
presents unique challenges for advocates, policymakers, and victims. 
Tools available when dealing with other large-scale human rights 
violations in China are not feasible. The openness and occasional 
compromise that Chinese officials display when dealing with workers' 
rights, discrimination against Hepatitis B patients, or even the one-
child policy, are non-existent when it comes to Falun Gong. But in 
their interactions with regimes such as the CCP's, democratic 
governments must not let the authoritarians dictate the agenda. It is 
precisely because victims of the Falun Gong campaign have so few 
avenues of recourse within the system that international solidarity, 
exposure of abuses, and pressure on their behalf are even more vital. 
For these reason, since 1999, Freedom House has consistently tracked 
the campaign in its publications, called for the release of illegally 
detained practitioners, and participated in annual rallies calling for 
an end to abuses against them.
    In this context, we would offer the following recommendations to 
members of Congress and the Obama administration:

         1. Meet with former Falun Gong prisoners of conscience or the 
        family of imprisoned practitioners residing in the United 
        States: It is difficult and dangerous for U.S. officials to 
        meet such individuals inside China. But as is evident from some 
        of the witnesses testifying here today, there is a sporadic 
        stream of Falun Gong practitioners coming from China with 
        first-hand information on what is happening inside and outside 
        of detention facilities. U.S. diplomats preparing for their 
        departure to China or officials participating in human rights 
        discussions with their Chinese counterparts should periodically 
        meet with such individuals.
         2. Continue to lobby for the release of individual prisoners 
        of conscience: Former prisoners of conscience whom I have 
        interviewed and who were the subject of international appeal 
        campaigns--including Falun Gong practitioners--have repeatedly 
        testified to the noticeably less harsh treatment they received 
        compared to their fellow, more internationally anonymous, 
        detainees.
         3. Support initiatives to independently research the dynamics 
        of the campaign: Central to the ability to advocate on behalf 
        of individuals and to gauge the full scale of abuses targeting 
        groups like Falun Gong is the capacity to verify individual 
        cases of religious prisoners and thoroughly investigate deaths 
        in custody, including allegations of forced organ removals. 
        Despite the sensitivity of the issue and difficulty in 
        obtaining information about Falun Gong prisoners, there are 
        avenues for doing so. Increased support, including funding, for 
        groups taking the initiative to conduct such research could 
        translate into real protection for members of this persecuted 
        minority.
         4. Take proactive measures to ensure that American companies, 
        citizens, and institutions are not deliberately or 
        inadvertently enabling or condoning abuses: Over the past year, 
        reports have emerged of incidents that point to the pitfalls of 
        engaging in close economic, educational, and medical 
        relationships with China at a time when the CCP is carrying out 
        a campaign like the one against Falun Gong. These have ranged 
        from a U.S. company allegedly supplying surveillance 
        capabilities to Chinese security agencies, to discriminatory 
        policies regarding teachers assigned to Confucius Institutes, 
        to concerns that medical journals are accepting papers with 
        data drawn from abusive organ transplant policies. Measures 
        could be taken to improve accountability in these sectors that 
        involve U.S. citizens and institutions.
         5. Remain vigilant in the face of Chinese official pressure to 
        self-censor outside of China: Although this is not the focus of 
        today's discussion, pressure to self-censor beyond China's 
        borders is a daily reality for government officials, 
        journalists, and event organizers when it comes to Falun Gong--
        similar to Tibetans, Uighurs, and other victim groups whose 
        persecution the regime is sensitive about. It is critical that 
        those of us outside China resist such pressures and remain 
        vigilant in protecting the right to free expression for all, 
        including those whose voices are systematically silenced within 
        China.

                                 * * *
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

                Prepared Statement of Jianchao Xu, M.D.

                           december 18, 2012
    Honorable Chairman Christopher Smith, members of Congress, and 
distinguished panelists. Thank you for your invitation to this hearing 
today. It is my honor and privilege to testify here before you in 
Congress.
    My name is Jianchao Xu. As a kidney specialist, I am an attending 
Staff Physician at the James J. Peters Veteran Administration Hospital 
in New York. I am also an adjunct Assistant Professor in Medicine at 
Mount Sinai School of Medicine. In addition, I serve as the Medical 
Director for the non-profit organization Doctors Against Forced Organ 
Harvesting (DAFOH), which is comprised of medical professionals from 
around the world who investigate the practice of illegal or unethical 
harvesting or transplantation of organs.
    The most powerful witness we could have here today would be a 
victim whose organ was illegally harvested. But as we all know, such 
victims will never have such a chance after their vital organs are 
removed from their bodies. Their chairs here will remain empty. After 
the victims, the next best witness would be a doctor who has removed 
organs from living prisoners of conscience and is now willing to step 
forward to tell the world about his or her first-hand knowledge of this 
crime against humanity. In lieu of their presence, I stand before you 
to submit my own findings and knowledge on the matter.
    Organ transplants are life-saving procedures, and organ donation--
which we often call ``the gift of life''--make this possible. 
Unfortunately, demand for organs greatly exceeds supply in every 
country. And as people live longer, as medical science and technology 
continues to advance, the demand will only grow with more patients 
steadily becoming eligible for organ transplant and more qualified 
doctors and transplant centers becoming available.
    A shortage of organ supply opens a door for illegal organ 
trafficking, organ tourism, and forced organ harvesting. The medical 
community has known about unethical organ transplant in China since the 
1990s. At a Congressional hearing in 2001, first-hand and direct 
evidence of unethical organ transplant practices in China surfaced. Dr. 
Wang Guoqi, a Chinese Medical Doctor, testified to the House of 
Representatives subcommittee on human rights, stating ``My work 
required me to remove the skin and corneas from the corpses of over one 
hundred executed prisoners, and on a couple of occasions, victims of 
intentionally botched executions . . . It is with deep regret and 
remorse that I stand here today testifying against the practices of 
organ and tissue sales from death row prisoners.''
    Dr. Wang described coordinated procedures that he said government 
officials and Chinese doctors developed to extract organs from inmates 
immediately after their executions so that they could be transplanted, 
in some cases before the prisoners' hearts stopped beating. Dr. Wang 
became tormented by the practice after he followed orders to remove the 
skin of a still-living prisoner in October 1995. The incident prompted 
him to alert the international community to the inhuman practice of 
organ harvesting in China.
    According to Wang's testimony, prisoners received blood tests in 
prison to determine their compatibility with interested donors. On 
execution day, he said, the prisoners who were to become organ donors 
were the first to die--thus, the prisoners' own blood and tissue types 
dictated how they were executed.
    As a nephrologist, I take care of patients whose lives depend on 
hemodialysis treatment three times a week. Each dialysis treatment 
typically lasts 3.5 hours. So, including the travel time, these people 
are basically devoting three days every week to hemodialysis treatment. 
Think of the burden on their lives, and now think about the fact that 
if they receive a kidney transplant, their lives immediately improve in 
every way. However, due to the limited source of kidney donations, only 
fraction of my patients can ever receive a transplant, and for those 
that do, the usual waiting time is more than three years. When I first 
learned that patients in China can receive kidney and other organ 
transplants within just days or weeks, I was appalled because I know 
exactly what process it takes to receive a kidney transplant.
    As a potential kidney organ recipient, the patient must contact a 
transplant center and ask for a transplant evaluation. A team of 
doctors can then provide an evaluation and determine if the patient is 
definitely eligible for a kidney transplant. After all of that, if the 
patient is lucky enough to be deemed a suitable candidate for 
transplantation, the patient will be put on the waiting list, where 
they wait--as I said--for an average of more than three years. The key 
to a successful transplant operation is to have the closest possible 
blood and tissue match. That is one of the reasons why the waiting time 
is so long--simply finding the right match takes years.
    Yet many Chinese hospitals have openly advertised that the waiting 
time for kidneys and even livers does not exceed one month; sometimes 
it's just a matter of a few days. Thus the question we face is: why can 
a patient in China find a match so quickly? One possibility is that the 
patient just gets a kidney that does not closely match patient's blood 
and tissue type, but if that were the case, the rejection rate of 
transplant patients in China would be alarmingly high. Since we do not 
see a trend of increased organ rejection in China, the mismatched 
transplant theory is not likely. The second possibility is that there 
is large number of living organ donors representing all possible blood 
and tissue types; when a patient walks into the hospital, the doctors 
only need to determine the patient's blood and tissue types, then they 
simply match the patient with one of the cataloged organ donors who 
will be killed on demand.
    If that process sounds too terrifying to believe or too coldly 
efficient to think possible, I'd like to present to you findings reaped 
from multiple investigations, systematic analysis of official medical 
reports in China, as well as prisoners' personal experiences. Together, 
I think you'll find that they prove the practice of illegal organ 
harvesting in China, especially from Falun Gong practitioners, is an 
expansive and ongoing operation supported and endorsed by the central 
Party leadership.
    Just looking at the numbers, it is obvious that something is wrong. 
There are vastly more transplants in China every year than there are 
identifiable sources of organs. For cultural reasons, Chinese people 
are reluctant to donate their organs after death. At least 98% of the 
organs for transplants come from someone other than family donors. In 
the case of kidneys, for example, only 227 out of 40,393 transplants 
(less than 0.6%)--done between 1971 and 2001 in China came from family 
donors. There is no organized, effective system of organ donation yet 
formed in China. The government of China has openly admitted to using 
the organs of executed prisoners. According to Amnesty International's 
reports, the average number of officially recorded executed prisoners 
between 1995 and 1999 was 1680 per year. The average between 2000 and 
2005 was 1616 per year. The average number for the periods before and 
after Falun Gong persecution began is the same. Even if we are to 
assume that every single execution results in an organ transplant, 
there is still not enough to account for the increase in transplants 
that came about after 1999, when the persecution of Falun Gong began.
    According to public reports, prior to 1999, there had been a total 
of approximately 30,000 transplants in China's history, with 18,500 of 
those cases in the six-year period during 1994 to 1999. Dr. Bingyi Shi, 
vice-chair of the China Medical Organ Transplant Association, stated 
that there were about 90,000 transplants as of 2005, which means that 
there were 60,000 transplants in the six-year period of 2000 to 2005.
    Where do the increased organ donors come from? The identified 
sources of organ transplants, consenting family donors and the brain 
dead, have always been small fraction of the donor pool. For example, 
in 2005, living-related kidney transplant consists of 0.5% of total 
transplants national wide. There is no indication of a significant 
increase in either of these categories in recent years. It is 
reasonable to assume that the identified sources of organ transplants 
which produced 18,500 organ transplants in the six-year period 1994 to 
1999 produced the same number of organs for transplants in the next six 
year period 2000 to 2005 because there has been no recorded change in 
the donation system or the overall willingness of the population to 
participate. Without a significant change in the donation process, the 
source of 41,500 transplants from 2000 to 2005 is unexplained. Where do 
the organs come from for these extra transplants? The allegation of 
organ harvesting from Falun Gong practitioners provides an answer.
    Because of China's lack of transparency, the precise statistics are 
impossible to obtain. However, independent lines of investigation using 
different methodologies from each other have reached the same 
conclusion: Organs are being harvested from living prisoners.
    Even if we use the China Deputy Minister, Wang Jiefu's own data 
there are approximately 30,500 unexplained sources of organs from 1997-
2007.\1\
    Another method of calculating the mysterious source of organ is 
from Mr. Ethan Gutmann, an adjunct Fellow of the Foundation for Defense 
of Democracies. He painstakingly interviewed victims who were 
imprisoned in China's prison and labor camps. As detailed in his 
chapter in the book ``State Organs'', his estimate is that 65,000 Falun 
Gong practitioners have been killed for their organs.\3\
    Gutmann found that Falun Gong practitioners detained in prisons and 
labor camps were often singled out to receive medical exams aimed at 
assessing the health of their vital organs, and that afterwards, some 
would disappear.
    It is also important to note that even though most of the 
statistics we are working from only go up to the middle or end of the 
last decade, we have every reason to believe that organ harvesting is 
ongoing in China. According to a report from NTDTV, a patient this year 
traveled from Taiwan to Mainland China's Tianjin First Central Hospital 
and received concurrent liver and kidney transplantations. It only took 
one month to find a matching liver and kidney, whereas he had been 
waiting for years in Taiwan. During his hospitalization, he was told 
that some transplant tourists had received matching donor organs within 
one week of initial evaluation there. The patient stated that, ``There 
were other foreign patients [at the Tianjin First Central Hospital], 
but I didn't ask where they were from. I know there is a special 
guarded international patient ward on the hospital's10th floor. I guess 
the patients inside have special backgrounds.''
    As a medical doctor, I struggle to understand why this is happening 
at this order of magnitude. I could not comprehend that fellow doctors, 
members of a noble profession, people granted special status in our 
society, could use their knowledge and skills to kill another human 
being.
                       what has been done so far
    The practice of harvesting organs from executed and living 
prisoners in China has seen distinct opposition from the medical 
community and other professions. Aside from medical organizations and 
associations like Doctors Against Forced Organ Harvesting (DAFOH), The 
Transplant Society (TTS) and World Medical Association (WMA), many 
individual doctors have started to oppose the unethical organ 
harvesting practices in China. Our collective effort to expose the 
illegal organ harvesting in China has generated results.
    The work of DAFOH is an exemplary resource for those from both 
medical and non-medical backgrounds to learn more about the unethical 
procedures in China. Since its inception a few years ago, DAFOH 
enlisted a host of well-respected doctors around the world to speak out 
against illegal organ harvesting in China. Our collective efforts also 
contributed to several publications in medical journals, including a 
letter in the prestigious Journal of American Medical Association in 
2011 (JAMA).\4\
    DAFOH's mission is to raise awareness and to call for an end to the 
unethical organ harvesting practices. DAFOH has co-hosted or organized 
forums and participated in panel discussions, including a panel 
discussion in the U.S. Capitol. There are many colleagues who share the 
same wish as us. Upon requesting a statement from TTS in early 2012, 
President-Elect Dr. Francis Delmonico replied: ``TTS is opposed to the 
use of organs from executed prisoners, and through the efforts of the 
Declaration of Istanbul Custodian Group, TTS opposes the presentation 
of reports from China at international congresses and the publication 
of papers from China in the medical literature that involves the use of 
organs from executed prisoners.''
    In November 2011, Chinese medical professionals published an 
article in the respected British medical journal Lancet, entitled ``A 
pilot programme of organ donation after cardiac death in China.'' \5\ 
The article can be characterized as an acknowledgement of China's 
unethical transplant. Of note, the lead author is Dr. Jiefu Huang, 
China's deputy minister of Health, making the article almost an 
official public policy statement rather than a scientific research.
    In Europe, a DAFOH petition drive to call upon UNHRC to lead an 
international investigation in China has generated 160,000+ signatures. 
Among the signers were more than 200 parliamentarians in Europe, 
including EU parliament's Vice President.
    Bob Doris, member of the Scottish parliament released a statement 
against organ harvesting on November 5.
    Michael Prue, member of Ontario's Legislation Assembly, has also 
spoken up against the forced organ harvesting.\6\
    The President of the Taiwanese Medical association has publicly 
condemned unethical organ harvesting in a November 2012 statement.
    Taiwan's Legislative Yuan made the following resolution on November 
22, 2012:

          The 2011 annual human rights report of the U.S. State 
        Department released on May 24, 2012 for the first time 
        mentioned organ transplants in China, and overseas, the media 
        and human rights groups continued to report on organ harvesting 
        of Falun Gong practitioners and Uighurs. According to the 
        statistics of Taiwan's Department of Health from 2000 to 2011, 
        up to 1,754 Taiwan citizens received organ transplants overseas 
        with 86% of those being conducted in China. And from 2005 to 
        2011, the National Health Insurance payments for postoperative 
        anti-rejection drugs rose to $7,734,540,000 NTD. But because 
        the Department of Health has no law to require organ transplant 
        recipients abroad who return home and receive anti-rejection 
        drugs by the health insurance subsidies to register the 
        transplant hospitals and physicians, it may allow the 
        recipients of organs of unknown origin to become accomplices of 
        organ harvesting while still enjoying the benefits of health 
        insurance and anti-rejection drugs. This is a significant 
        oversight. Therefore, within three months, the Department of 
        Health shall require major medical institutions and physicians 
        to register the transplant country and hospital information 
        (including surgeons) of those who have received organ 
        transplants in a foreign country while they apply for post-
        operative health insurance payments after returning home. It is 
        reasonable for foreign organ transplant information to be 
        transparent to gain health insurance benefits.'' While this is 
        a very welcoming change, we hope the Taiwan government can 
        further tighten their restriction on organ tourism.

    In addition to political leaders and other organizations, we have 
also seen individual citizens from different countries starting 
grassroots movements against organ harvesting.
    DAFOH petition in US: within 4 weeks, 30,000+ signatures collected
    DAFOH petition in Europe: 160,000+ signatures collected
    DAFOH petition in Australia: 30,000 signatures collected
    Additionally, an independent signature drive among Taiwanese 
doctors generated 2,000+ signatures to call for further investigations.
    Within the international medical community there have also been 
strong steps. At the July 2010 biennial World Transplant Congress 
meeting of TTS in Vancouver over 30 abstracts were submitted from China 
and considered for acceptance; the data for the research came from 
several hundred transplants where the donor source was deemed likely to 
be executed prisoners. This occurred despite the fact that a standard 
ethics filter mechanism was in place, and the TTS ethics policy 
regarding organs from executed prisoners had been published and was 
well known. Fortunately the failure of the ethics filter to prevent 
acceptance of these abstracts was recognized, and authors were 
specifically required to state, in the text of their abstracts, as a 
condition of acceptance, that no data from studies using executed donor 
organs were included. As a result, most abstracts were withdrawn.
    Recent actions taken by the editorial board of the American Journal 
of Transplantation are very encouraging. Starting in May 2011, changes 
have been made to the instructions to authors submitting manuscripts to 
these journals. The instructions now include the following statement: 
``The American Journal of Transplantation (AJT) will not accept 
manuscripts whose data derives from transplants involving organs 
obtained from executed prisoners . . .''
    Similarly, a firm stance was undertaken by one the most respected 
clinical journals in the world: the Journal of Clinical Investigation. 
In its January issue of 2012,an editorial statement was made as 
follows: ``The practice of transplanting organs from executed prisoners 
in China appears to be widespread. We vigorously condemn this practice 
and, effective immediately, will not consider manuscripts on human 
organ transplantation for publication unless appropriate non-coerced 
consent of the donor is provided and substantiated.''
    The statement continues, ``This disparity in the supply of organs 
is a particular problem in China, where rapid expansion of the capacity 
to perform transplants has not been accompanied by the development of a 
system for recovering organs from those who die in hospitals while on 
life support, as is international practice. There is almost no 
systematic recovery of voluntarily donated cadaver organs. No regional 
or national system exists for soliciting consent to donate organs in 
advance from those who die or their relatives after death. 
Unfortunately, the evidence is clear that some physicians in China, in 
an effort to perform more transplants, are engaged in a practice that 
violates basic standards of medical ethics and human rights, namely the 
use of organs from executed prisoners.''
    ``Using organs from executed prisoners violates basic human rights. 
It violates core ethical precepts of transplant medicine and medical 
ethics. Worse still, some of those who are killed may be prisoners 
whose `crimes' involve no more than holding certain political or 
spiritual beliefs.''
    ``. . . the international biomedical community, including 
especially journal editors and editorial boards, must not be complicit 
with the practice of killing on demand to obtain organs from executed 
prisoners. We are not naive. We recognize that a boycott by this 
journal and its peers is unlikely, by itself, to bring an end to this 
practice. But we do hope that our actions will bring attention to this 
outrage and, in doing so, encourage China to develop policy options for 
obtaining organs consistent with international standards, conventions, 
and ethics.''
    We have seen progress, but more need to be done.
                            what can we do?
To the medical community:
    As medical doctors, we will continue to inform and advise the 
professional transplant community to implement policies to dissuade 
organ harvesting. This includes advocating for international and 
national professional medical societies and journals to not accept 
abstracts, publications, or presentations from Chinese transplant 
centers unless the authors clearly indicate that the data presented is 
in accordance with the most recent Chinese government regulations 
regarding transplant tourism and that executed prisoners were not the 
source of organs.
    Membership of international professional societies by Chinese 
transplant professionals must be conditioned by acceptance of ethics 
policies that specifically express the unacceptability of executed 
prisoners as a source of organs.
    Memberships of Chinese doctors should be suspended if they fail to 
comply with the ethical standards of medical associations.
    Training of Chinese transplant professionals by the international 
community must be conditioned on commitments that trainees will not 
engage, directly or indirectly, in the use of organs from executed 
prisoners.
    Pharmaceutical companies must ensure that no executed prisoners are 
the source of organs used in their studies and that Chinese government 
regulations regarding transplant tourism are adhered to rigorously.
To society and our government:
    I urge the United States government and anyone with any knowledge 
of organ harvesting to publicly release all evidence they have with 
regard to China's use of prisoners as a source of organ donation. I 
believe that a well-informed citizen will stop going to China for 
transplants if they know clearly that someone will be killed for his or 
her organ transplant. Likely this is the most effective and least 
expensive way to decrease demand for organs in China.
    Together with my other two colleagues, Dr. Arthur Caplan, director 
of medical ethics with New York University's Langone Medical Center and 
Dr. Centurion, a practicing physician in California, we have launched a 
petition on the White House website urging President Obama to speak out 
and help stop this gruesome practice on December 2, 2012. Within 2 
weeks, we have collected over 10,000 signatures. People can visit 
www.organpetition.org to learn more.
    I ask Congress to adopt legislative changes, to prohibit patients 
going abroad to receive illegal organ transplants, or at the very 
least, congress could require the patients to register their operations 
with the Department of Public Health. Their respective transplant 
information must include the name of the transplant center, the 
attending physician, and most importantly, the source of organ 
donation.
    I urge Congress to adopt legislative changes to limit health care 
insurance coverage for those who receive organs from unknown sources. 
It has been well documented that the medical outcomes of such 
transplants are much poorer with unusually high mortality and morbidity 
rates, and the economic burden is being shifted to the United States 
for the post-operative care for these patients.
    All countries should strengthen their laws against the crime of 
trafficking in organs. The laws should require doctors to report to the 
authorities of their country any evidence suggesting that a patient has 
obtained an organ from a trafficked person abroad, defined to include 
persons in detention abroad.
    Until the Chinese law on organ transplants is effectively 
implemented, foreign governments should not issue visas to doctors from 
China seeking to travel abroad for the purpose of training in organ or 
bodily tissue transplantation. Any doctor in China known to be involved 
in trafficking in the organs of prisoners should be barred entry by all 
foreign countries.
    Until the international community is satisfied that the new Chinese 
law on organ transplants is effectively implemented, foreign funding 
agencies, medical organizations, and individual health professionals 
should not participate in any Government of China-sponsored organ 
transplant research or meetings. Foreign companies that currently 
provide goods and services to China's organ transplant programs should 
cease and desist immediately until the government of China can 
demonstrate that their law on organ transplants is effective.
                           concluding remarks
    I would like to express my deepest gratitude to the CECC and 
especially the honorable Chairman Smith; you have been a true champion 
in advocating for Falun Gong and Human rights, and particularly the wok 
you have done to expose organ harvesting, such as by spearheading in 
the bipartisan dear colleague letter expressing concern about China's 
forced organ harvesting from prisoners of conscience, particularly from 
Falun Gong detainees, and asking the Department of State to share any 
information they have received about unethical organ harvesting in 
China, including anything that Wang Lijun, a Chinese police chief who 
met with consular officials in China, might have divulged to U.S. 
consular officials. Wang is believed to have been intimately involved 
in organ harvesting; he has received an award for ``innovation'' in 
organ harvesting, and also, as a police chief, he directly oversaw the 
persecution of Falun Gong with his jurisdiction, which included 
hospitals. Thus, Mr. Wang information may hold to key to unlock the 
mystery of organ harvesting in China. Revealing this information may 
put an end to the horrific crime against humanity.
                               references
    1. Huang Jiefu et al. Government policy and organ transplantation 
in China. Lancet. 372: 1937 (2008).
    2. Arthur L. Caplan, Howard A. Rockman, and Laurence A. Turka, 
Editorial position on publishing articles on human organ 
transplantation. J Clin Invest. January 3; 122(1): 2 (2012).
    3. Torsten Trey. State Organs--transplant abuse in China (2012).
    4. Torsten Trey, Abraham A Halpern, and Maria A Fiatarone MA Singh. 
Organ transplantation and regulation in China. JAMA 306 (17): 1863-4 
(2011).
    5. Huang Jiefu, et al, A pilot programme of organ donation after 
cardiac death in China. the Lancet, Volume 379, Issue 9818, p 862-865 
(2012).
    6. http://en.minghui.org/html/articles/2012/12/5/136529.html
                                 ______
                                 

                Prepared Statement of Charles Lee, M.D.

                           december 18, 2012
    Thank you, Mr. Chairman and the distinguished members from the U.S. 
House and Senate, as well as executive branches of the government, for 
giving me the opportunity to testify today.
             1. falun gong and the benefits of the practice
    Falun Gong, also known as Falun Dafa, is an ancient meditation 
system that consists of five meditative exercises and the principles of 
``Truthfulness Compassion Forbearance,'' which all practitioners are 
supposed to assimilate themselves to.
    The practice has an ancient lineage, yet it was only made public on 
a large scale in 1992. After that, it spread in China like wild fire. 
It is free and easy to practice; there is no formal membership and no 
places of worship. Those of us who practice Falun Gong find that it 
brings significant health benefits, reduced stress, and that its moral 
principles bring harmony to interpersonal relationships, our 
workplaces, and wider communities. At the end of 1998, Chinese 
government sources estimated that 70 to 100 million people were 
practicing it in China.
              2. the persecution on falun gong by the ccp
    In the 1990s, the government of China enthusiastically promoted 
Falun Gong on the basis that it improved public health and helped 
reduce healthcare costs. Yet the rapid growth of the practice, coupled 
with the fact that it had a spiritual philosophy rooted in traditional 
Chinese beliefs, caused some Communist Party leaders to view Falun Gong 
as a threat to their monopoly on moral authority. Moreover, Falun 
Gong's values of ``Truthfulness Compassion Forbearance'' stood in sharp 
contrast to the corruption and violence of the Communist Party.
    In July 1999, the Communist Party started the campaign to eradicate 
Falun Gong and promote the supremacy of Party's leadership and loyalty 
to the party.
    The Party has always tried to control every facet of life in China. 
It has done this partly through force and coercion, and creating an 
environment of fear where nobody dares to speak out. Secondly, it has 
systematically indoctrinated the whole country, destroyed traditional 
religions and value systems, and exercised complete control over all 
the media and information outlets. These are the same techniques it 
uses to persecute Falun Gong.
    This persecution is one of the greatest tragedies happening in the 
world today. Hundreds of thousands of Falun Gong practitioners have 
been detained extralegally in this persecution. In many labor camps and 
detention centers, former prisoners report that Falun Gong 
practitioners are the majority of detainees.
    Central party authorities have sanctioned the use of systematic 
torture against Falun Gong practitioners. In the labor camps, 
authorities are told to use any measures necessary to force Falun Gong 
practitioners to recant their beliefs, and are told that they will not 
be punished if Falun Gong practitioners die in custody. Authorities at 
all levels of government are given economic incentives and penalties 
that are tied to their success in cracking down on Falun Gong. Former 
prisoners, many of whom are not themselves Falun Gong practitioners, 
regularly report that Falun Gong detainees are singled out for 
mistreatment in prisons and labor camps; in a 2006 UN Special 
Rapporteur report, two-thirds of reported torture cases in China were 
against Falun Gong practitioners. The torture methods include sexual 
assault, beatings, shocks with electric batons, violent force-feedings 
with feces and salt solutions.
         3. the cruelties of the persecution and the death toll
    So far, 3,627 reports of deaths have been documented and confirmed 
by Falun Gong practitioners. However, the true death toll should be 
much higher. An untold number of Falun Gong practitioners have 
disappeared amidst persecution in the last 13 years.
    More gruesome still, China's massive organ transplant industry has 
been supplied by organs taken from Falun Gong prisoners of conscience. 
Canadian investigators David Matas and David Kilgour have estimated 
that between 2000 and 2005, more than 40,000 Falun Gong practitioners 
may have been killed and their organs sold to supply China's organ 
transplant industry. Researcher Ethan Gutmann says that about 65,000 
were likely killed for their organs between 2000 and 2008. The actual 
number of deaths can be many times more, because the CCP has always 
been manipulating numbers to mislead people or simply tell the blatant 
lies in order to cover up the atrocity. And much of the data collected 
by the researchers were from the official figures. There have been also 
many underground organ transplantation operations as well.
    There is also evidence that Falun Gong practitioners' bodies have 
been sold to plastination companies, which put them on display in body 
exhibits.\1\ Human beings have been turned into commodities and been 
used to maximize profits. These atrocities recall the Nazis' medical 
experiments and their use of human hair as pillow stuffing, and skin as 
lampshades. As Chairman Smith wrote, the possibility of mass organ 
harvesting from Falun Gong ``pushes us into a horrific beyond, a beyond 
that challenges our language, making `barbaric' too calm a word, too 
leached of horror.''
---------------------------------------------------------------------------
    \1\ For information on the body exhibits, see http://
www.zhuichaguoji.org/en/sites/zhuichaguoji.org.en/files/record/2012/11/
236-plastination-report--english2--report.pdf
---------------------------------------------------------------------------
    The volume of Falun Gong practitioners was so high that the party 
actually built new labor camps just to contain them. In March 2006, a 
retired military doctor revealed that there were 36 such large 
concentration camps in the country. He claimed that one camp, 672-S in 
Jilin Province, held more than 120,000 Falun Gong practitioners.
    It is estimated that there are 300 million transient population in 
China. These include the migrating city workers from the countryside, 
tens of millions of appellants who constantly appeal to the governments 
for their injustices, and millions of unyielding Falun Gong 
practitioners who have lost their jobs, schools, and families, and left 
their hometown to escape the persecution. In the past decade, many of 
them disappeared/vaporized and nobody can trace them down. (We have 
many practitioners in the U.S. with their practicing family members 
cannot be located or found.)
    Tens of millions of Falun Gong practitioners had recovered from 
their illnesses (including terminal diseases) and benefited from an 
improved health. The persecution on Falun Gong in the past 13 years has 
forced many of them giving up the practices, and in consequence, facing 
with deteriorated health and eventually died. My mother was one of 
them.
    The total deaths caused by the persecution should have reached 
several millions, if all types of death are included. What is outlined 
here is only part of the clues on this heinous crimes in human history. 
It is extremely important for governments and people, both in the West 
and the East, to know/find-out the scale and severity of the largely-
undisclosed persecution. Much more efforts are needed to stop this 
crime against humanity and to fully investigate and lay down the 
framework for the long-overdue justice to be served.
           4. peaceful resistance by falun gong practitioners
    Even though we have faced such severe persecution, there is not a 
single case in which a Falun Gong practitioner used violence against 
the perpetrators. Instead, we have resisted persecution by peacefully 
informing Chinese people about the true situation, debunking the 
propaganda that the Chinese government has produced against us.
    One way we have done this is through underground ``material sites'' 
all across China, where practitioners can use proxy services to bypass 
the censorship firewall, download and share reports of persecution, and 
create informational literature and DVDs telling the truth about Falun 
Gong and the persecution. Courageous practitioners then distribute this 
information at great personal risk. There are estimated to be about 
200,000 such material sites in China today, and between 20 and 40 
million practitioners.
    Overseas practitioners have also developed various media outlets 
and circumvention software to bring information in and out of China 
uncensored.
                          5. my own experience
    In 2002 and 2003, I also sought to resist the persecution by 
breaking through the veil of censorship in China. I traveled to China 
with the goal of tapping into state television broadcasts to show 
videos about the true situation of Falun Gong and the persecution. 
However, I was abducted in January 2003, and sentenced in a show trial 
to three years in Nanjing prison.
    Even though I was an American citizen, the prison guards still did 
everything possible to brainwash and intimidate me. In addition to the 
physical torture and forced slave labor, the brainwashing sessions 
lasted for all three years. They forced me to watch TV programs 
defaming Falun Gong and praising the Communist Party. Very often, they 
cut off all my information sources for weeks on end, not even letting 
me talk with anybody. After these periods of isolation, they would 
subject me to intensive brainwashing sessions in the hopes that my 
resistance would be reduced. If I weren't an American citizen whose 
case was internationally known, the treatment I experienced would have 
been much worse.
    I thank the strong support from friends around the world, 
especially the US Congress, that allowed me to come back to this 
country with my body intact and my will unbroken.
                     6. awakening of chinese people
    While I was imprisoned, I would wonder to myself how it was that 
people could so readily abuse and torture their own compatriots. I 
wondered to myself how they'd allowed themselves to be deceived, and 
how they came to be so full of hatred.
    The book titled ``Nine Commentaries on the Communist Party'' 
published in November 2004 by the Epochtimes has given the answer and 
led to a truly historical awakening of Chinese People.
    In the past 60 plus years, the party distorted the Chinese people's 
sense of right and wrong. It taught them to view each other as enemies, 
and to struggle against each other. The party's ideology is so 
pervasive that people are even unaware of their inability to think 
independently. What's more, from a young age, Chinese people are taught 
that the party and the country are the same concept, so whenever 
someone criticizes the party, they feel that it's an attack on the 
nation of China and on themselves as Chinese.
    If there is to be freedom and lasting peace in China, it will only 
come after the Chinese people take a principled stand and reject the 
culture of violence and deceit promoted by the Communist Party. This is 
beginning to happen already. In the last several years, tens of 
millions of Chinese people have renounced their membership in the 
Communist Party, Youth League, and Communist Young Pioneers. They are 
making the choice to live according to their own conscience--not the 
will of the party--and are refusing to participate in further 
violations of human rights. The process of renouncing the party (known 
in Chinese as ``Tuidang'') is thus a deeply spiritual, personal, and 
moral process, and a matter of reconnecting with traditional Chinese 
values of human heartedness and compassion. To date, 129 million 
renunciation statements have been received from people taking this 
important step.
    As more and more people's consciences are freed from the CCP's 
control, the broader social and political environment is changing. The 
CCP is losing the battle for the hearts and minds of the Chinese 
people, a process that will ultimately lead to the CCP's 
disintegration. Today, Chinese people are becoming unafraid of 
suppressions and crackdowns by the CCP regime, and more and more people 
are taking a public stand to support Falun Gong and oppose the 
persecution.
    I would like to conclude my testimony by thanking the leadership of 
Congressman Smith and Congressman Andrews, along with 106 members of 
Congress from 33 states, for their bipartisan Dear Colleague letter to 
Secretary Clinton, expressing serious concern over China's forced organ 
harvesting from prisoners of conscience (particularly from Falun Gong 
detainees) and asking the Department of State to release all 
information about unethical organ harvesting in China, including what 
Wang Lijun might have shared with U.S. diplomats while seeking his 
asylum at U.S. Consulate General in Chengdu. To my knowledge, the 
Department of State has not yet responded to the Dear Colleague letter.
    We believe that the United States as a world leader in protecting 
human rights has a moral obligation to speak out and help bring an end 
to this horrific crime against humanity. We also believe that by doing 
this, the US will protect itself from being further deceived and harmed 
by the CCP regime.
    Thank you.
                                *  *  *
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

                  Prepared Statement of James W. Tong

                           december 18, 2012
    My testimony will focus on three issues.\1\ First, how serious is 
the Falun Gong as a law enforcement problem for the Chinese government 
in recent years? Second, what kind of activities does the Falun Gong 
community engage in inside China in the same period? Third, how does 
the Falun Gong community inside China communicate with each other and 
with the global Falun Gong community? I will begin, however, with the 
birthday celebration of the Falun Gong this year.
---------------------------------------------------------------------------
    \1\ For data source of the testimony below, see James Tong, 
``Banding after the Ban: the Underground Falungong in China, 1999-
2011,'' Journal of Contemporary China, vol. 21, no. 78 (November, 
2012), pp. 1045-1062, where much of the contents of the testimony are 
drawn from.
---------------------------------------------------------------------------
    On May 13, 2012, the Falun Gong celebrated its 20th anniversary. 
Its head office was overwhelmed by well wishes and greetings. There 
were new proclamations of a Falun Gong Day in Baltimore, Charlotte, 
Denver and Milwaukee, a Falun Gong week from Detroit and a Falun Gong 
month from Edmonton. But what is interesting were unique computer-
generated greeting cards and hand-drawn paintings, many with classic 
Chinese poems, sent by 2,788 practitioners from all seven 
administrative regions in China, in addition to those of more than a 
dozen occupational groups from steel-workers to law-enforcement inside 
China. What is just as note-worthy is the absence of reports of acts of 
overt defiance. There was no report of protest rallies in Beijing , or 
of Falun Gong groups staging collective meditation exercises in 
provincial capitals, or of unfurling Falun Gong banners in public 
places. The celebration of the Falun Gong as a congregational festival 
and not an act of political defiance leads us to the three issues 
referred to earlier.
   i. gradual reduction of the temporal-spatial scope of falun gong 
                                defiance
    First, there has been a gradual but steady reduction of reported 
Falun Gong defiance in the past twelve years. The overall trend was a 
precipitous decline of such activities from 2000-2002, a sharp rebound 
in 2003, then a steady decline from 2004 thereafter. The trend can be 
observed from three official sources. Table-1 presents references to 
the Falun Gong in the annual report of the Chief Procurator, the 
equivalent of the U.S. Attorney-General. Every year, the top law-
enforcement official of China delivered a report to the National 
People's Congress. The report reviews the main law-enforcement tasks of 
the nation in the preceding year, addresses major law and order issues 
facing the country, and states the priority procuratorial tasks in the 
year ahead. As shown in Table-1, the Falun Gong was named as a notable 
law-enforcement problem from 1999 to 2003, but was dropped from the 
annual report from 2004 through 2011. At least at the national level, 
the Falun Gong appears to remain a public security risk in the first 
five years after the government ban in 1999, but declines in relative 
importance from 2004 on.

    Table-1: Reference to Falun Gong as a Law-Enforcement Problem in the Annual Chief Procuracy Report to the
                                      National People's Congress, 1999-2011
----------------------------------------------------------------------------------------------------------------
  1999     2000     2001     2002     2003     2004     2005     2006     2007     2008    2009    2010    2011
----------------------------------------------------------------------------------------------------------------
     X        X        X        X        X        -        -        -        -        -       -       -       -
----------------------------------------------------------------------------------------------------------------
Source: Zhongguo jiancha nianjian, annual issues from 2000 to 2010, and news.xinhuanet.com/politics/./c--
  111672904.htm, access on April, 2012.
Note: Since the procuracy report of a given year provides law-enforcement data of the preceding year, data in
  the table refers to the law-enforcement calendar year and not the year when the report is delivered.

    At the next administrative level, provincial procuracy reports 
offer a similar view of the issue. Similar to its central government 
counterpart, the provincial procuracy report is also an annual ritual 
delivered to the provincial legislature, covering the same subject 
scope and written in the same format. As shown in Table-2, provincial 
trends largely mirror the national trend, where the Falun Gong was 
depicted as a major law-enforcement problem from 1999-2003, but faded 
out in significance thereafter.

   Table-2: Reference to Falun Gong as Local Enforcement Problem in the Annual Procuracy Report to Provincial
                                          People's Congress, 1999-2011
----------------------------------------------------------------------------------------------------------------
Province   1999    2000    2001    2002    2003    2004    2005    2006    2007    2008    2009    2010    2011
----------------------------------------------------------------------------------------------------------------
Beijing       X       X       X       -       -       -       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Tianjin       X       X       X       X       -       -       X       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Hebei         X       X       -       -       -       -       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Shanxi        X       X       -       -       -       -       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Neimongg      X       X       -       -       X       -       -       X       -       -       -       -       -
 u
----------------------------------------------------------------------------------------------------------------
Liaoning      X       X       X       -       -       -       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Jilin         X       X       -       -       X       X       X       X       X       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Heilongj      X       X       -       -       -       -       -       -       -       -      NA       -       -
 iang
----------------------------------------------------------------------------------------------------------------
Shanghai      X       X       X       -       X       -       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Jiangsu       -       X       X       -       -       -       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Zhejiang      X       X       X       -       X       X       X       -       X       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Anhui         X       X       X       X       X       -       -       -       X       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Fujian        X       X       X       -       X       X       -       -       -       X       -       -       -
----------------------------------------------------------------------------------------------------------------
Jiangxi       X       X       X       -       -       -       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Shandong      X       -       -       -       -       -       -       -       -      NA       -       -
----------------------------------------------------------------------------------------------------------------
Henan         X       X       X       -       -       -       -       -       -      NA      NA       -       -
----------------------------------------------------------------------------------------------------------------
Hubei         X       X       X       -       X       -       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Hunan         X       -       -       X       -       -       -       -       X       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Guangdon      X       X       -       -       -       -       -       -       -       -       -       -       -
 g
----------------------------------------------------------------------------------------------------------------
Guangxi       X       X       X       X       X       -       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Hainan        X       X       X       -       -       -       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Sichuan       X       X       X       -       X       X       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Guizhou       X       X       -       -       -       -       -       -       -       -      NA       -       -
----------------------------------------------------------------------------------------------------------------
Yunnan        X       X       X       -       -       -       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Xizhang       X       -       X       -       -       -       -       -       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Shaanxi       X       X       X       -       X       X       X       X       -       -       -       -       -
----------------------------------------------------------------------------------------------------------------
Gansu         X       X       X       -       -       -       -       -       -       X       -       -       -
----------------------------------------------------------------------------------------------------------------
Qinghai       X       X       X       -       -       -       -       -       -       -      NA      NA       -
----------------------------------------------------------------------------------------------------------------
Ningxia       X       X       X       -       -       X       X       X       -      NA      NA      NA      NA
----------------------------------------------------------------------------------------------------------------
Xinjiang      X       -       -       X       -       -       -       -      NA      NA      NA      NA
----------------------------------------------------------------------------------------------------------------
Chongqin      X       X       X       -       X       X       X       X       -       -       -       -       -
 g
----------------------------------------------------------------------------------------------------------------
Total        29      28      21       4      12       7       6       5       4       2       0       0       0
 no. of
 Provinc
 ial
 reports
 with
 ref. to
 FLG
----------------------------------------------------------------------------------------------------------------
Source: See source note on Table-1. Full Chinese texts of provincial procuracy reports for 2009-2011 are
  obtained from internet searches. ``NA'' denotes provinces where the latter has not yielded any such documents
  for given years using the subject keyword and searching for the websites of the Provincial Government, the
  Provincial Legislature and the Provincial Procuracy.

    A similar pattern on the decline of the Falun Gong threat can also 
be seen in the number of articles on the Falun Gong published in the 
Renmin ribao, the major national newspaper in China and the official 
organ of the Central Committee of the Chinese Communist Party. These 
are articles that either refer to the Falun Gong in the title or name 
the Falun Gong in the text. Table-3 presents the monthly total of such 
articles from July, 1999 through December, 2011. It can be seen that 
except for 2000, the annual aggregates have been on a monotonic 
decline, registering 609, 325, 534, 198, 54, 17 from 1999 through 2004, 
and in the single digits thereafter. Monthly totals also show a similar 
pattern. In 1999, they range from 41 (October) to 196 (August), 10 to 
63 in 2000, 6 to 66 in 2001, 1 to 28 in 2002, 2 to 9 in 2003, 1 to 4 in 
2004, and 1 to 2 in 2005 through 2011. Data from both the annual 
central and provincial procuracy reports, as well as Renmin ribao 
articles then, point to a sharp reduction of both sets of indexes since 
2003, followed by a steady decline thereafter, with a hard-core remnant 
that had survived and continued to defy official suppression efforts 
through at least 2008. In combination, they show that the Falun Gong 
has been emasculated in China but not eradicated.

                               Table-3: Articles on Falun Gong in RMRB, 1999-2011
----------------------------------------------------------------------------------------------------------------
                        Jan    Feb    Mar    Apr    May    June   July   Aug    Sep    Oct    Nov    Dec   Total
----------------------------------------------------------------------------------------------------------------
1999                                                               170    196    125     41    104     73    609
----------------------------------------------------------------------------------------------------------------
2000                      52     25     63     38     23     34     25     10     14     10     10     21    325
----------------------------------------------------------------------------------------------------------------
2001                      59     66     20     46     25     28     34      6     15     10     12     23    534
----------------------------------------------------------------------------------------------------------------
2002                      20     11     22     24     26     10     25      7     28     17      1      7     98
----------------------------------------------------------------------------------------------------------------
2003                       5      2      9      2      5      2      2      4      4      3      5      3     54
----------------------------------------------------------------------------------------------------------------
2004                       4      1      1      3      1             2      2                    1      2     17
----------------------------------------------------------------------------------------------------------------
2005                       2      1      1                    2      1                           2             9
----------------------------------------------------------------------------------------------------------------
2006                       1             2             2                                                1      6
----------------------------------------------------------------------------------------------------------------
2007                                                                                             1             1
----------------------------------------------------------------------------------------------------------------
2008                                                                                             1      1      2
----------------------------------------------------------------------------------------------------------------
2009                       1                                                              1             2      4
----------------------------------------------------------------------------------------------------------------
2010                                     1             1                                                       2
----------------------------------------------------------------------------------------------------------------
2011                       1      1             1             1                    1                           5
----------------------------------------------------------------------------------------------------------------
Grand Total                                                                                                 1767
----------------------------------------------------------------------------------------------------------------
Source: Renmin ribao, 1946-2011, CD-ROM edition.

      ii. new forms of organized underground falun gong activities
    If the Falun Gong has not been engaging in overt acts of defiance 
inside China in recent years, what has it been doing? There are two 
main forms of organized Falun Gong activities. Both meet in 
unstructured small groups or in larger assemblies.
Small Study groups and Fa Conferences
    In the Fa Study Group, small cells of two or more engage in common 
spiritual cultivation, at fixed or irregular intervals, usually in a 
private residence like Christian house fellowships, about once or twice 
a week. There is no formal structure, and no fixed meeting schedule, 
format, size, and organization. Fa Conferences are larger gatherings of 
Falun Gong practitioners, generally meeting also in private homes, of 
around 10 people. At least some were convened on major Falun Gong 
anniversaries, such as April 25th when the Falun Gong staged their 
historic protest rally in Beijing's Zhongnanhai, or on May 13, the 
foundation day of the congregation, or on July 20th, the date 
commemorated by many Falun Gong groups as the anniversary of the ban on 
the Falun Gong.
    A detailed report shows one Fa conference had a make-shift altar 
set up with a Falun Gong plaque placed at its center, on top of a Falun 
Gong table-cloth, beneath two Buddhist or Li Hongzhi portraits. A 
candle stand was placed in the middle of the altar in front of the 
plaque, itself flanked by a plate of fruits or buns as tributary 
articles, surrounded by silk floral arrangements on each side of the 
altar. Practitioners sat on the floor with their legs crossed in a 
standard Falun Gong exercise posture.
    The congregation was called to order at 8 a.m. The meeting 
consisted of four segments each punctuated by ten-minute meditation 
sessions on the hour where practitioners were called on to join the 
universal Falun Gong congregation to send forth righteous thoughts. In 
the first session, two short videos were played, the first on 
``Remembrance', where photographs of Falun Gong practitioners who 
reportedly died in official custody were shown on the screen. This was 
followed by another short video on ``The Flying Revolving Wheel'' on 
developments in the Falun Gong. The second session was the main part of 
the conference where practitioners discussed the recent articles of Li 
Hongzhi, who instructed all practitioners to perform the three tasks of 
Studying the Falun Method, Sending forth Righteous Thoughts, and 
Clarifying the Truth. Before the discussion of the third task, a 
musical video entitled ``Coming for You'' was played. It was about 36 
European Falun Gong practitioners who went to Beijing on November 20, 
2001 and displayed a Falun Gong banner in the Tiananmen Square. 
Returning to Europe, they composed the title song and formed a ``Coming 
for You European Choir'' made up of over 80 singers from 13 European 
nations that performed in London, Paris, New York and Hong Kong, 
singing separately in Mandarin, Swede, French, Italian and in four 
voice parts. In the Fa Conference, both the musical CD, as well as the 
commemorative video elicited strong emotions from sobbing participants. 
As the last item of the conference, the host mentioned two specific 
projects to which participants were called on to contribute their 
efforts. The first was to collect documentary evidence for official 
persecution, including the Indictment, Sentencing, and Ruling 
Statements, Detention Notices, Summons to appear in labor reform 
institutions, as well as official receipts for fines and Falun Gong 
material confiscated by the authorities, which would be sent to Falun 
Gong media organizations overseas for documenting official repression. 
The second was to locate and assist the orphans of Falun Gong 
practitioners who perished in official custody. The conference 
adjourned at noon.
Propagation Activities to Clarify the Truth
    The second set of organized activities was ``Clarifying the 
Truth'', a direct instruction from Li Hongzhi to his adherents that all 
should do their part in letting the public know about the true Falun 
Gong doctrine and practice, and the plight practitioners suffer under 
the repressive regime, repeated in many of his written messages and 
public speeches. These are done both in passive and active ways, and 
both in their work units and residence as well as outside their place 
of employment and domicile.
    Passive ways of Clarifying the Truth entail drop-and-run tactics of 
leaving Falun Gong materials in target sites--at the door of houses in 
rural villages, or in buses, shopping malls, restaurants, post offices, 
public phone booths, benches in public parks, bicycle shopping baskets, 
the door handle of autos, and outside shop windows. Some left leaflets 
on bus depot, underground walkways, trains, electric wire poles, 
telephone booths, and street walls. Additional drop-off points included 
postal boxes, milk delivery containers, newspaper holders outside 
doors, shelves in supermarkets, suit pockets on racks of clothing 
stores.
    These non-invasive tactics contrast with the more interactive 
methods of other bolder practitioners who engaged their targets, 
including speaking to the elderly in nursing homes, talking to store 
cashiers, peasants waiting in fields for the harvester to arrive. Not 
all acts of clarifying the truth were, however, done by lone operators. 
Some travelled in groups on bicycles or in two cars, bringing food and 
water for their own consumption to distant mountain communities. Along 
the way, they put up Falun Gong posters on electric wire poles, trees, 
and hung Falun Gong banners, traveling over 100 li (50 km. or 31 miles) 
one-way, speaking to villagers as well as residents of forest lands and 
dropped off pamphlets to rural households, putting up posters in every 
house.
        iii. communicating with the global falun gong community
    Thanks to the internet, the underground cellular Falun Gong 
community is connected with each other and with the universal Falun 
Gong congregation in the diaspora, which has organizations in 114 
countries and regions in the world, including groups in 45 of the 50 
states in the U.S. Falun Gong practitioners inside China can thus tap 
into the vast resources of its universal community. On one end of this 
cyber link is the elaborate Falun Gong telecommunications network 
composed of two news agencies, three television stations, two radio 
stations, a newspaper, and the worldwide web Minghui.org with global 
electronic footprint. On the other are the ``Material Centers'' 
established by the underground Falun Gong community inside China that 
reproduce Falun Gong global communications, create local content, and 
distribute these to other local Falun Gong practitioners.
The Falun Gong Cyber Community
    Falun Gong practitioners in China can get their daily bread from 
the Minghui.org website, which publishes around 40 daily news items on 
developments relating to the Falun Gong in China. In addition to 
information on the Falun Gong survivors in China, what practitioners in 
China may find particularly useful are up-to-date intelligence, like 
when some public security bureau was planning a systematic inspection 
of computers, that some taxicab operators in the city were government 
agents, or some cities were installing electronic surveillance systems 
in the residential compound or in street walls.
    The Minghui.org website offers a whole spectrum of technical 
consulting on how to set up a Material Center, produce and distribute 
Falun Gong materials. In its section on Technical Reference, it lists 
informational entries on 11 topics including appropriate equipment and 
production processes for manufacturing CD's, DVD's, video-tapes, stick-
on posters and banners; text and graphics editing; software debugging 
as well as computer and photocopier trouble-shooting. It suggests ways 
to position the household satellite dish at different times of the day 
in China to get the best reception for television programs broadcast by 
the Falun Gong New Dynasty Station in the U.S. It warns against the 
most recent mail interception techniques of public security agents 
embedded in Chinese post offices, suggests ways to prevent electronic 
locating and eaves dropping by the authorities, and to circulate Falun 
Gong slogans widely by writing those slogans on currency bills.
    In a special section entitled how to evade network blocking, the 
Minghui.org website publishes 67 entries ranging from the best anti-
virus and data management software available in China, techniques to 
save documents and data when surfing in internet cafes, the latest 
technology by law-enforcement to erect firewalls and how to bypass 
these obstructions. To minimize the pernicious effects of official 
hacking and worming, it suggests that practitioners in the mainland 
should set up three email addresses, one for correspondence and the 
other two for storage, where Falun Gong documents and graphic data 
would be saved as attachments. To bypass official surveillance efforts, 
it offers step-by-step instructions on how to apply for free overseas 
email addresses, attaching the actual English-language electronic 
application form, highlighting the key entries that are to be filled, 
translating the terms in Chinese, and providing samples of responses in 
English.
Material Centers
    To rebuild the communications system within China, a network of 
Material Centers was established by Falun Gong survivors to link Falun 
Gong practitioners inside China with each other as well as with its 
international media hub in the U.S. The ``Home Material Centers'' are 
operated by members of a single family in their own residence. The 
standard equipments are a computer, printer, photocopier, and CD-
burners. The operations of the Material Centers involved three basic 
tasks. First, the master copy from the international Minghui.org 
website are downloaded, from which relevant items to produce a local 
edition of newsletter and posters are selected. Second, multiple copies 
of the local printed or electronic file are then made by photocopiers 
or CD burners, stapled and/or packaged for dissemination. Third, these 
end products are then distributed to fill local orders from other Falun 
Gong groups, or to their target locations in urban housing blocks or 
rural villages.
    One report from Northeast China describes a large material centers 
that was equipped with a state-of-the-art photocopier, a high-volume, 
multifunctional machine capable of printing 100 pages per minute. The 
output in a busy day was 4-5 boxes of print-outs, or 40,000-50,000 
sheets. Orders for printed products were placed by other Falun Gong 
groups in the city or surrounding urban places, in amounts of two to 
three thousand sheets per order, or one or two boxes (10-20,000 
sheets). To replenish paper supply, the Material Center periodically 
purchased a truck-load of paper that was around 80 boxes. In the three-
year lifetime of the Center, it moved and operated in three locations, 
produced Falun Gong materials printed on over 1,000 boxes of paper, 
burnt over tens of thousands of CD's, plus a large volume of posters, 
Falun Gong exercise tapes, video, and CD's.
                               conclusion
    On the twentieth anniversary of the founding of the Falun Gong, one 
may well ponder why the authoritarian regime was able to emasculate but 
not eradicate what its top leader considered to be the most serious 
domestic political threat since the 1989 Democracy Movement. Has the 
regime that once crushed demonstrating students with tanks become 
mellow, second-guessing itself about the expected utility of nipping 
another domestic challenger? Is it a case of calculated inaction, where 
the price of the pyrrhic victory was considered too costly for China's 
newfound international status? Or is it rather that the Anti-Falun Gong 
Campaign had a limited objective in the first place, including only the 
liquidation of its national and provincial leadership, decimation of 
its organizational structure, purge of Falun Gong adherents who were 
inside the Communist Party, sanction for its collective actions that 
breached the law, but excluding grassroots practitioners who do 
breathing exercises and read Falun Gong mantra in the solitude of their 
homes, or even gather for piety and not for protest? And since the 
regime has delegated law-enforcement authority relating to the Falun 
Gong to local governments, should explanations for regional variations 
in repressive efficacy be sought not at the central but at the local 
levels, which differ significantly in their willingness and ability to 
deal with the outlawed sect? Or is it the case that China does not fall 
exception to the general rule that few governments can exterminate 
well-entrenched and committed ideologues, determined insurgents and 
underground churches, especially one that has metathesized and 
nourished by daily and easy international contact with a well-
established global community that enjoys international protection? 
Whatever the case, both the Falun Gong and the Chinese government have 
reasons to prefer the status-quo than the relentless campaign that 
suppressed the congregation in July, 1999. For Beijing, it gained 
social stability which it needs for economic development at home and a 
positive international image abroad. For the Falun Gong, it has 
survived the mortal wound inflicted by the Chinese government in a 
ruthless suppression, lived through its darkest night and rebuilt the 
movement for a better tomorrow.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <all>

</pre></body></html>
